<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Transportation and Housing and Urban 
Development, and Related Agencies for inclusion in the record. 
The submitted materials relate to the fiscal year 2014 budget 
request for programs within the subcommittee's jurisdiction.]
     Letter From the Advocates for Highway and Auto Safety, et al.
                                                     June 17, 2013.
Hon. Patty Murray,
Chair, Subcommittee on Transportation, Housing and Urban Development, 
        and Related Agencies,
Washington, DC.
Hon. Susan Collins,
Ranking Member, Subcommittee on Transportation, Housing and Urban 
        Development, and Related Agencies,
Washington, DC.
    Dear Madam Chairman: As families who have lost loved ones in large 
truck crashes, victims who have survived large truck crashes, leading 
national safety organizations and truck drivers, we want to express our 
gratitude for your leadership in holding the Appropriations 
Subcommittee on Transportation, Housing and Urban Development and 
Related Agencies hearing, ``Crumbling Infrastructure: Examining the 
Challenges of Our Outdated and Overburdened Highways and Bridges.'' We 
respectfully request that this letter be submitted to the hearing 
record.
    The recent collapse of the Interstate 5 bridge in your home State 
of Washington brought the need to address the declining condition of 
our Nation's infrastructure to the forefront of the debate over 
adequate care and investment in our roads and bridges. Initial reports 
from the National Transportation Safety Board (NTSB) indicate the 
collapse resulted from an oversized tractor-trailer striking an 
overhead truss structure. This catastrophe highlights a growing safety 
risk to the public and demonstrates the critical need for Congress to 
strongly resist constant efforts to allow bigger, heavier and longer 
trucks on our highways.
    Truck crash fatalities are on the rise. In 2011, over 3,700 people 
were killed and 88,000 were injured on U.S. highways in large truck 
crashes. Additionally, in 2010, large truck crash fatalities increased 
by 9 percent to 3,675 deaths, despite an overall decline in motor 
vehicle deaths during the same year. Allowing larger, heavier trucks 
will further burden our bridges and roads, endanger the motoring public 
including truck drivers, as well as strain our wallets. The annual cost 
to society from crashes involving large trucks is estimated to be 
nearly $42 billion. This is an unnecessary and preventable loss of 
lives and dollars.
    By overwhelming margins in public opinion polls, the American 
public has consistently opposed any increases in the size and weight of 
large trucks. A May 2013 Lake Research Partners public opinion poll 
reiterated this, showing that 68 percent oppose heavier trucks and 88 
percent of Americans do not want to pay higher taxes for the damage 
caused by heavier trucks. The consistent and broad opposition to 
bigger, heavier trucks is based on the public's clear understanding 
about the safety consequences that tragically are demonstrated in 
preventable truck crash fatalities and injuries occurring every day on 
our Nation's roadways. Sharing the road with overweight and oversized 
trucks is dangerous to motorists involved in a crash as well as when 
bridges fail. In 2007 the devastating collapse of the Interstate 35 
bridge in Minneapolis tragically killed 13 people and injured 145 more 
innocent motorists.
    The well-financed lobbying efforts by special industry interests to 
push for bigger and heavier trucks, regardless of the human and 
economic consequences, are relentless as well as disingenuous. Claims 
that allowing increases in truck size and weight limits will lead to 
fewer trucks is wrong and has never occurred when Congress or States 
have given in to industry pressure. The catastrophic annual toll of 
deaths and injuries in large truck crashes and the threat to bridge and 
roadway safety highlighted by the recent bridge collapse in Washington 
State as well as the 2007 I-35 bridge collapse serve to validate 
concerns that the public and truck crash victims have regarding truck 
safety. History has demonstrated that every time truck weights 
increase, more trucks occupy our roads. For example, after the 1982 
Surface Transportation Assistance Act (STAA) pre-empted State size and 
weight limits on federally funded interstate highways, and in 2010 when 
the Federal weight limit on Maine and Vermont interstates was 
increased, truck traffic grew significantly. Despite this reality, 
Congress will again be asked to look the other way and legislate 
increases in truck size and weight limits as the discussions begin on 
the next surface transportation reauthorization bill.
    The American Society of Civil Engineers (ASCE) currently rates the 
Nation's bridges at a C+. Other studies have documented billions of 
dollars needed to address the backlog of road and bridge repairs facing 
our Nation. We cannot continue to wait for events like the bridge 
collapses in Washington and Minnesota to bring attention and action to 
the dire state of the Nation's infrastructure. Overweight trucks create 
a disproportionate level of this damage, and as axle weight rises even 
in small increments, the resulting damage increases disproportionately 
at a rapid rate. In the case of the I-35 bridge in Minnesota, a leading 
factor in that bridge's collapse was found to be loading. The loading 
which contributed to that bridge collapse resulted from a combination 
of construction materials and traffic, and can also result from 
increases in truck weights.
    If truck weights are increased from 80,000 to 97,000 pounds, the 
overall weight on a bridge would be magnified substantially when 
multiple trucks are on the bridge each carrying 17,000 more pounds. 
Five trucks simultaneously traveling over a bridge would result in 
85,000 additional pounds on the bridge. On one of our Nation's more 
than 70,000 structurally deficient bridges, this may potentially exceed 
the bridge's loading capacity. Our Nation's leaders must heed the 
Washington and Minnesota bridge collapses as a wakeup call and act 
swiftly to take the necessary legislative action to prevent further 
tragedies of this nature from occurring.
    In the interests of public safety, the protection of our 
infrastructure, and the preservation of our dwindling tax revenues and 
our environment, it is crucial for Congress to resist attempts to 
ratchet up truck sizes and weights. According to the Federal Highway 
Administration, there are 66,749 structurally deficient bridges and 
84,748 functionally obsolete bridges throughout the United States. With 
so many bridges requiring critical maintenance and repair, there are 
simply not enough resources to address even a fraction of the problem, 
let alone to shoulder the additional costs that bigger, heavier trucks 
will impose.
    Thank you for your continuing leadership in addressing highway 
deaths and injuries. We look forward to continuing to work with you in 
advancing safety.
            Sincerely,
                                   Jacqueline Gillan,
                                           President, Advocates for 
                                               Highway and Auto Safety.
                                   Fred McLuckie,
                                           Legislative Director, 
                                               International 
                                               Brotherhood of 
                                               Teamsters.
                                   Daphne Izer,
                                           Founder, Parents Against 
                                               Tired Truckers, mother 
                                               of Jeff Izer who was 
                                               killed in a truck crash 
                                               10/10/93.
                                   Joan Claybrook,
                                           Co-Chair, Citizens for 
                                               Reliable and Safe 
                                               Highways.
                                   John Lannen,
                                           Executive Director, Truck 
                                               Safety Coalition.
                                   Lawrence Liberatore,
                                           Board Member, Parents 
                                               Against Tired Truckers, 
                                               father of Nick 
                                               Liberatore who was 
                                               killed in a truck crash 
                                               6/9/97.
                                   Jennifer Tierney,
                                           Board Member, Citizens for 
                                               Reliable and Safe 
                                               Highways, Member, 
                                               Federal Motor Carrier 
                                               Safety Administration's 
                                               (FMCSA's) Motor Carrier 
                                               Safety Advisory 
                                               Committee, daughter of 
                                               James Mooney who was 
                                               killed in a truck crash 
                                               9/20/83.
                                   Jane Mathis,
                                           Board Member, Parents 
                                               Against Tired Truckers, 
                                               Member, FMCSA's Motor 
                                               Carrier Safety Advisory 
                                               Committee, mother to 
                                               David Mathis and mother-
                                               in-law to Mary Kathryn 
                                               who were killed in a 
                                               truck crash 3/25/04.
                                   Wanda Lindsay,
                                           Founder, The John Lindsay 
                                               Foundation, seriously 
                                               injured in a truck crash 
                                               5/7/10, wife of John 
                                               Lindsay who died on 5/9/
                                               10 following a truck 
                                               crash.
                                   Linda Wilburn,
                                           Board Member, Parents 
                                               Against Tired Truckers, 
                                               mother of Orbie Wilburn 
                                               who was killed in a 
                                               truck crash 9/2/02.
                                   Roy Crawford,
                                           Underride Network, father of 
                                               Guy ``Champ'' Crawford 
                                               who was killed in a 
                                               truck crash 1/12/94.
                                   Tami Friedrich Trakh,
                                           Board Member, Citizens for 
                                               Reliable and Safe 
                                               Highways, Member, 
                                               FMCSA's Motor Carrier 
                                               Safety Advisory 
                                               Committee, sister to 
                                               Kris Mercurio, sister-
                                               in-law to Alan Mercurio, 
                                               aunt to Brandie Rooker 
                                               and Anthony Mercurio who 
                                               were killed in a truck 
                                               crash 12/27/89.
                                   Dawn King,
                                           Board Member, Citizens for 
                                               Reliable and Safe 
                                               Highways, daughter of 
                                               Bill Badger who was 
                                               killed in a truck crash 
                                               12/23/04.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

    This statement focuses on the Department of Housing and Urban 
Development (HUD).
    On behalf of the Nation's 37 Tribal Colleges and Universities 
(TCUs), which collectively are the American Indian Higher Education 
Consortium (AIHEC), thank you for the opportunity to express our views 
and recommendations regarding the Department of Housing and Urban 
Development Tribal Colleges and Universities' Program (TCUP) for fiscal 
year 2014.

                          SUMMARY OF REQUESTS

    Department of Housing and Urban Development (HUD).--Beginning in 
fiscal year 2001, a TCU initiative had been administered by the HUD--
Office of University Partnerships as part of the University Community 
Fund. This competitive grants program enabled TCUs to build, expand, 
renovate, and equip their facilities that are available to, and used 
by, their respective reservation communities. We strongly urge the 
subcommittee to reject the recommendation included in the President's 
fiscal year 2014 budget request and to support the goal of Executive 
Order 13592 to strengthen TCUs by funding the competitive HUD-TCU 
Program at the fiscal year 2010 level of $5.435 million. Additionally, 
we request that language be included to permit that a small portion of 
the funds appropriated may be used to provide technical assistance to 
institutions eligible to participate in this competitive grants 
program.

        TCU SHOESTRING BUDGETS: ``DOING SO MUCH WITH SO LITTLE''

    Tribal Colleges and Universities are accredited by independent, 
regional accreditation agencies and like all U.S. institutions of 
higher education, must periodically undergo stringent performance 
reviews to retain their accreditation status. TCUs fulfill additional 
roles within their respective reservation communities functioning as 
community centers, libraries, tribal archives, career and business 
centers, economic development centers, public meeting places, and child 
and elder care centers. Each TCU is committed to improving the lives of 
its students through higher education and to moving American Indians 
toward self-sufficiency.
    TCUs have advanced American Indian and Alaska Native (AI/AN) higher 
education significantly since we first began four decades ago, but many 
challenges remain. Tribal Colleges and Universities are perennially 
underfunded, and remain some of the most poorly funded institutions of 
higher education in the country.
    The tribal governments that have chartered TCUs are not among the 
handful of wealthy gaming tribes located near major urban areas and 
regularly highlighted in the mainstream media. Rather, they are some of 
the poorest governments in the country and Tribal Colleges and 
Universities are home to some of the most disadvantaged counties in 
America. In fact, 7 of the Nation's 10 poorest counties are home to a 
TCU. The U.S. Census Bureau, American Community Survey specifies the 
annual per capita income of the U.S. population as $27,100. However, 
the annual per capita income of AI/ANs is just $13,300, about half that 
of the general population.
    The Federal Government, despite its direct trust responsibility and 
treaty obligations, has never fully funded the TCUs institutional 
operating budgets, authorized under the Tribally Controlled Colleges 
and Universities Assistance Act of 1978. Currently, the administration 
requests and Congress appropriates over $200 million annually toward 
the institutional operations of Howard University (exclusive of its 
medical school), the only other Minority Serving Institution (MSI) that 
receives institutional operations funding from the Federal Government. 
Howard University's current Federal operating support exceeds $19,000 
per student. In contrast, most TCUs are receiving $5,665 per Indian 
Student (ISC) under the Tribal College Act, about 70 percent of the 
authorized level. TCUs have proven that they need and deserve an 
investment equal to--at the very least--the congressionally authorized 
level of $8,000 per Indian student, which is only 42 percent of the 
Federal amount now appropriated for operating Howard University. It is 
important to note that although about 17 percent of the TCUs' 
collective enrollments are non-Indian students living in the local 
community, TCUs only receive Federal funding for operations based on 
Indian students, which are defined as members of a federally recognized 
tribe or a biological child of a tribal member. Please understand that 
we are by no means suggesting that Howard University does not need or 
deserve the funding it receives, only that the TCUs also need and 
deserve adequate institutional operations funding; however, their 
operating budgets remain grossly underfunded.
    While TCUs do seek funding from their respective State legislatures 
for their students that are non-Indian State residents (sometimes 
referred to as ``non-beneficiary'' students) successes have been at 
best inconsistent. TCUs are accredited by the same regional agencies 
that accredit mainstream institutions, yet they have to continually 
advocate for basic operating support for their non-Indian State 
students within their respective State legislatures. If these non-
beneficiary students attended any other public institution in the 
State, the State would provide that institution with ongoing funding 
toward its day-to-day operations. Given their locations, often hundreds 
of miles from another postsecondary institution, TCUs remain open to 
all students, Indian and non-Indian, believing that education in 
general, and postsecondary education in particular is the silver bullet 
to a better economic future for their regions.
    TCUs effectively blend traditional teachings with conventional 
postsecondary curricula. They have developed innovative ways to address 
the needs of tribal populations and are overcoming long-standing 
barriers to success in higher education for American Indians. Since the 
first TCU was established on the Navajo Nation in 1968, these vital 
institutions have come to represent the most significant development in 
the history of American Indian higher education, providing access to, 
and promoting achievement among, students who might otherwise never 
have known postsecondary education success.
    Inadequate funding has left many TCUs with no choice but to 
continue to operate under severely distressed conditions. The need for 
HUD-TCUP funding remains urgent for construction, renovation, 
improvement, and maintenance of key TCU facilities, such as basic and 
advanced science laboratories, computer labs, and increasingly 
important student housing, day care centers, and community services 
facilities. Although the situation has greatly improved at many TCUs in 
the past several years, some TCUs still operate--at least partially--in 
donated and temporary buildings. Few have dormitories and even fewer 
have student health centers. At Sitting Bull College in Fort Yates, 
North Dakota, competitively awarded HUD grant funds have been leveraged 
to expand the college's usable space from 12,000 square feet (sf) to 
100,000 sf over 10 years. Additionally, HUD grant dollars have been 
used to address three leaking roofs that created a mold problem in the 
area referred to at the college as the ``Hall of Buckets.'' HUD grant 
funds were also used to complete a renovation on its learning center, 
correcting major deficiencies, including recurring sewer and water 
problems, handicap accessibility issues, lack of effective safety/
security measures (surveillance and alarm systems), and outdated 
washroom facilities.

                             JUSTIFICATIONS

    Department of Housing and Urban Development.--Executive Order 13592 
addressing American Indian education and strengthening of Tribal 
Colleges and Universities holds Federal agencies accountable to develop 
plans for integrating TCUs into their various programs. TCUs work with 
tribes and tribal communities to address all aspects of reservation 
life, including the continuum of education, housing, economic 
development, health promotion, law enforcement training, and crime 
prevention. Likewise, Federal agencies need to work with TCUs. To 
achieve results, Congress needs to hold the administration accountable 
for the strengthening of the TCUs, including their physical plants and 
ensuring that they are routinely included as full partners in all 
existing and potential Federal higher education programs. The HUD-TCU 
competitive grants program, administered by the Office of University 
Partnerships, is an excellent place to start. This competitive grants 
program has enabled TCUs to expand their roles and efficacy in 
addressing development and revitalization needs within their respective 
communities. No academic or student support projects have been funded 
through this program; rather, funding was available only for community-
based outreach and service programs and community facilities at TCUs. 
Through this program, some TCUs have been able to build or enhance 
child care centers, including Head Start facilities, and social 
services offices; help revitalize tribal housing; establish and expand 
small business development; and enhance vitally needed community 
library services. Unfortunately, not all of the TCUs were able to 
benefit from this small but very important program. The program staff 
at the Department has no budget to provide technical assistance with 
regard to this program. If a small portion of the appropriated funds 
were to be available for program staff to conduct workshops and site 
visits, more of the TCUs and their respective communities could benefit 
from this vital opportunity. We strongly urge the subcommittee to 
support the HUD-TCU competitive grants program at $5,435,000, and to 
include language that will allow a small portion of these funds to be 
used to provide technical assistance to TCUs, to help ensure that much-
needed community services and programs are expanded and continued in 
the communities served by the Nation's TCUs.

                  PRESIDENT'S FISCAL YEAR 2014 BUDGET

    The President's fiscal year 2014 budget request does not provide 
funding for the University Community Fund, which housed the TCU program 
and other Minority-Serving Institutions programs. We respectfully 
request that the subcommittee reject the administration's 
recommendation and continue to recognize the abundant need for 
facilities construction and improvement funds for TCUs and appropriate 
funding for the Tribal Colleges and Universities Program, and the other 
MSI-HUD programs, namely: Historically Black Colleges and Universities; 
Hispanic Serving Institutions Assisting Communities; and Alaska Native 
and Native Hawaiian Serving Institutions Assisting Communities, to be 
allocated competitively within their individual programs.

                               CONCLUSION

    We respectfully request that beginning in fiscal year 2014, 
Congress illustrate its support for the goals of the new executive 
order aimed at strengthening TCUs by restoring the HUD-TCU competitive 
grants program and provide for technical assistance to help these 
dynamic institutions improve and expand their facilities to better 
serve their students and communities. Thank you for your continued 
support of the Nation's TCUs and for your consideration of our fiscal 
year 2014 HUD appropriations requests.
                                 ______
                                 
  Prepared Statement of the American Public Transportation Association

    Madam Chairman and members of the subcommittee, on behalf of the 
American Public Transportation Association (APTA), I thank you for this 
opportunity to submit written testimony on the fiscal year 2014 
Transportation, Housing and Urban Development, and Related Agencies 
appropriations bill, as it relates to Federal investment in public 
transportation and high-speed and intercity passenger rail.
    With the passage of a new, 2-year surface transportation 
authorization bill--Moving Ahead for Progress in the 21st Century Act 
(MAP-21)--APTA's focus shifted from reauthorization legislation to 
ensuring the authorized programs are adequately funded. Federal 
investment in infrastructure is necessary for a variety of reasons, all 
of which lead back to supporting the economy and domestic job creation. 
Funding from the Federal Government leverages State and local resources 
and allows local governments and transit agencies to access capital 
markets, providing the resources necessary to build, replace, and 
repair infrastructure.
    Americans took 10.5 billion trips in 2012, the second highest 
ridership since 1957, and 154 million more trips than the prior year. 
This was the seventh year in a row that more than 10 billion trips were 
taken on public transportation systems nationwide. And these ridership 
levels were achieved despite the impact that Superstorm Sandy had on 
transit service in the Northeast. With demand for transit only growing, 
investments will continue to be required to get people to school, work 
and play, and in turn, provide jobs in construction, maintenance, and 
all the related industries required to support public transportation.

                               ABOUT APTA

    APTA is a nonprofit international association of 1,500 public and 
private member organizations, including transit systems and high-speed, 
intercity and commuter rail operators; planning, design, construction, 
and finance firms; product and service providers; academic 
institutions; transit associations and State departments of 
transportation.

             OVERVIEW OF FISCAL YEAR 2014 FUNDING REQUESTS

    The Moving Ahead for Progress in the 21st Century Act (MAP-21) 
authorizes $10.695 billion for the Federal Transit Administration's 
(FTA's) programs and expenses, with $8.595 billion of that provided 
from the Mass Transit Account of the Highway Trust Fund--which is 
financed with public transportation's share of Federal motor fuel tax 
revenues. The remaining $2.1 billion, used to fund New Starts, 
Research, the Transit Cooperative Research Program (TCRP), Technical 
Assistance, FTA Administration, and a handful of additional programs, 
must be appropriated from General Fund revenues. Given the current 
state of infrastructure and the upward trend in demand for public 
transportation services, APTA urges Congress to appropriate full 
funding to each program as authorized under MAP-21.
    Beyond FTA appropriations, we again urge Congress to appropriate 
funding for the Rail Safety Technology Grants program (section 105) of 
the Rail Safety Improvement Act (RSIA), to assist with the 
implementation of congressionally mandated positive train control 
systems. The Federal deadline for implementation of positive train 
control systems is rapidly approaching, and to date, Congress has not 
provided the necessary funding to support implementation of this 
important safety program for commuter railroads.

     MAP-21 AND THE CONTINUING NEED FOR FEDERAL TRANSIT INVESTMENT

    The new surface transportation law, MAP-21, provided a needed 
respite from years of authorization extensions, combined with 
appropriations continuing resolutions that resulted in significant 
funding uncertainty among transit agencies. Public transportation 
systems and projects require long-term funding certainty in order to 
plan major capital projects and procure assets such as rail cars, buses 
and facilities. While the 27 months of authority have helped to 
stabilize the situation, MAP-21 provided for only modest growth after 
years of essentially flat funding. The investment levels included in 
the bill were far from what is required to bring our systems into a 
state of good repair, much less to expand service to meet growing 
demands. In previous testimony to this subcommittee, APTA has cited 
U.S. Department of Transportation estimates that a one-time investment 
of $78 billion is needed to bring currently operating transit 
infrastructure up to a state of good repair, and this does not include 
annual costs to maintain, expand or operate the existing system. 
Research on transit needs shows that capital investment from all 
sources--Federal, State, and local--should be doubled if we are to 
prepare for future ridership demands. The administration's $50 billion 
proposal would go a long way toward accomplishing our state of good 
repair objectives.
    In their 2013 Report Card for America's Infrastructure released 
recently, the American Society of Civil Engineers (ASCE) gave the U.S. 
public transportation infrastructure a ``D'' grade for the Nation's 
lack of investment. This grade drives home a sense of urgency for our 
Nation to focus on increased investment in public transportation. The 
rating is virtually unchanged from 4 years ago, which was the last time 
ASCE examined the state of America's infrastructure. The ``Failure to 
Act'' report also emphasizes that the American economy lost $90 billion 
in 2010 due to the lack of investment in public transportation. The 
report also shows that, despite ridership gains and a clear and 
increasing demand for public transportation service, 45 percent of 
Americans still lack access to public transit in their communities.
    It is important to stress that the demand for public transportation 
and the need for Federal leadership will not diminish in the months and 
years ahead. Public transportation is a vital component of the Nation's 
total transportation infrastructure picture, and with ridership 
projected to grow, dependable public transportation systems will be 
vital to the transportation needs of millions of Americans. We must 
make significant, long-term investments in public transportation or we 
will leave Americans with limited transportation options, and in many 
cases, stranded without travel options. While Congress continues to 
consider how to proceed on a well-funded, multi-modal surface 
transportation bill, it remains critically important that annual 
appropriations bills address both current and growing needs.

                FEDERAL TRANSIT ADMINISTRATION PROGRAMS

    Capital Investment Grants (New Starts).--The New Starts program is 
the primary source of Federal investment in the construction or 
expansion of heavy rail, light rail, commuter rail, bus rapid transit 
and ferryboat projects. Across the country, demand for Federal 
assistance continues to outweigh currently authorized funding and 
resources, and New Starts funding is more important than ever with the 
expanded eligibility for Core Capacity projects. Unlike the core FTA 
formula programs, the New Starts program is funded from the General 
Fund, not the Mass Transit Account of the Federal Highway Trust Fund. 
The program as reformed by MAP-21 includes a streamlined approval 
process, but even with the reforms, projects will continue to face the 
most robust Federal review process of any Federal infrastructure 
investment program and authorized funding remains short of demand. APTA 
asks Congress to appropriate funding for the New Starts program at or 
above the MAP-21 authorized levels.
    Transit Research/Transit Cooperative Research Program (TCRP)/
Technical Assistance and Standards Development.--APTA strongly urges 
the committee to fully fund the Research, Development, Demonstration, 
and Deployment Program, the Transit Cooperative Research Program 
(TCRP), Technical Assistance and Standards Development, and Workforce 
Development at the authorized levels, or at a minimum at the requested 
levels in the administration's fiscal year 2014 budget.
    In particular, APTA urges Congress to recognize the great value and 
benefits represented in the TCRP. The TCRP is an applied research 
program that provides solutions to practical problems faced by transit 
operators. Over the TCRP's 20 years of existence, it has produced more 
than 500 publications/products on a wide variety of issues of 
importance to the transit community. TCRP research has produced a 
variety of transit vehicle and infrastructure standards and 
specifications, as well as a variety of handbooks addressing many 
relevant subject areas of interest to the transit community. TCRP 
generates significant benefits and large economic returns on 
investment, and it does this with a budget that is 1/10,000 of the $57 
billion governments spend annually on public transit services, and even 
an even smaller ratio when compared with the total benefits that 
transit service improvements provide to users, communities and the 
economy. TCRP costs will be repaid many times over if the program 
produces even small cost savings, service quality improvements, 
ridership gains, increases in transport system efficiency, or 
additional economic development.

                FEDERAL RAILROAD ADMINISTRATION PROGRAMS

    As Congress begins to consider reauthorizations of the Rail Safety 
Improvement Act (RSIA) and the Passenger Rail Investment and 
Improvement Act (PRIIA), there are two important programs APTA wishes 
to emphasize as priorities for the industry.
    Positive Train Control.--A high priority for APTA within the 
programs of the Federal Railroad Administration (FRA) is the adequate 
funding for implementation of Positive Train Control (PTC) through the 
Railroad Safety Technology Grants Program, section 105 of RSIA. The 
RSIA requires that all passenger rail operators, as well as certain 
freight railroads, implement positive train control PTC systems by 
December 31, 2015. The cost of implementing PTC on public commuter 
railroads alone is estimated to exceed well over $2 billion, not 
including costs associated with acquiring the necessary radio spectrum 
or the subsequent software and operating expenses. APTA urges Congress 
to appropriate a minimum of $50 million, the annual authorization 
included under RSIA. APTA urges the subcommittee to direct these funds 
to commuter rail implementation of PTC, and to fund those systems that 
plan to implement before the deadline.
    As the installation of PTC on nearly 4,000 locomotives and 
passenger cars with control cabs, and 8,000 track miles progresses, 
costs are beginning to mount. The total cost of implementation on 
commuter railroads is expected to far exceed initial estimates, with 
estimates doubled in some cases. Meanwhile, Congress has appropriated 
only $50 million of the $250 million that was authorized. A federally 
mandated deadline, coupled with virtually no Federal funding is forcing 
agencies to commit extremely limited capital budgets to implement PTC. 
Commuter railroads that have begun to install PTC are facing difficult 
choices as some will have to defer critical safety sensitive 
infrastructure maintenance projects to pay for PTC. As a group, these 
railroads have worked in good faith to comply with the act's 
requirements. Additional funding provided by Congress for the Railroad 
Safety Technology grants is fundamental to the industry's ability to 
implement PTC.
    High-Speed and Intercity Passenger Rail Investment.--APTA strongly 
supports continued investment in high-speed and intercity rail projects 
and services. The U.S. Census Bureau estimates that the U.S. population 
of our Nation will grow by more than 100 million over the next 40 
years. Such increases will overwhelm America's aviation, road and 
existing rail transportation infrastructure. To accommodate the needs 
of an ever-growing and highly mobile population, the United States must 
develop and continually expand a fully integrated multimodal high-speed 
and intercity passenger rail (HSIPR) system. Investing in 
infrastructure ensures the efficient movement of people and goods that 
is essential to continued economic growth and other national policy 
goals. High-speed intercity passenger rail would ultimately serve both 
densely populated mega-regions as well as rural and small urban 
communities which will benefit from the increased transfer points and 
feeder services connecting with new high-speed rail corridors.
    Passenger rail projects are advancing in 32 States and the District 
of Columbia, with each project supporting economic growth by creating 
construction and manufacturing jobs for American workers and attracting 
small businesses and new development that will generate domestic 
business growth. High-speed rail will create a revitalized domestic 
transportation industry supplying more products and services, with more 
dollars retained in our economy.

                               CONCLUSION

    We thank the subcommittee for allowing us to share APTA's views on 
fiscal year 2014 public transportation and high-speed and intercity 
rail appropriations issues. APTA looks forward to working with the 
subcommittee as it makes investment decisions about the public 
transportation programs.
                                 ______
                                 
      Prepared Statement of the American Public Works Association

    Madam Chairman and members of the Senate transportation 
appropriations subcommittee, thank you for the opportunity to submit 
testimony for the hearing, Crumbling Infrastructure: Examining the 
Challenges of Our Outdated and Overburdened Highways and Bridges.
    My name is Elizabeth Treadway, president of the American Public 
Works Association (APWA). I submit this statement today on behalf of 
our members.
    The American Public Works Association is an organization whose 
members are dedicated to providing public works infrastructure and 
services to millions of people in rural and urban communities, both 
small and large. Working in the public interest, our 28,500 members and 
nearly 2,000 public agencies plan, design, build, operate and maintain 
our transportation, water supply, stormwater, wastewater treatment, 
waste and refuse disposal systems, public buildings and grounds and 
other structures and facilities essential to our economy and quality of 
life.
    Local governments own about 75 percent of the nearly 4-million-mile 
roadway network and more than half of the Nation's bridges and manage 
about 90 percent of the transit systems. With nearly every trip 
beginning and ending on a local road, street or sidewalk, a strong 
local-State-Federal partnership is key to ensuring a safe, seamless and 
efficient multimodal transportation network.
    We join others in expressing our deepest sympathy to everyone 
affected by the collapse of the Skagit River Bridge on May 23. We were 
saddened by this and offer our support to everyone working to recover 
and rebuild.
    Like other bridges throughout the Nation, the Skagit River Bridge 
is a vital link in the transportation system. In the northwest, it is 
part of the main travel route between Seattle, Washington and 
Vancouver, British Columbia and averages 71,000 vehicles daily. The 
tragic collapse of this functionally obsolete span is a stark reminder 
of the aging and deteriorating condition of our Nation's public 
infrastructure, increasingly over-burdened by growing system demands 
and outdated infrastructure. It is suffering the effects of chronic 
underinvestment and is in critical need of funding for maintenance, 
repair and modernization.
    The needs are clear and documented. The U.S. Department of 
Transportation (USDOT) reports that the Nation (all levels of 
government) invests roughly half of what is needed to improve the 
current state of our roads and bridges. Nearly one in four bridges 
nationwide is rated deficient and in need of repair, improvement or 
replacement. Of the more than 607,300 publicly owned bridges on which 
we depend for personal mobility and movement of freight, nearly 151,500 
are rated deficient, with more than 66,740 classified as structurally 
deficient and more than 84,740 as functionally obsolete.\1\ Neither 
designation indicates a bridge is unsafe, but they do indicate a need 
for repair, improvement or replacement. The age of the average bridge 
is more than 40 years.
---------------------------------------------------------------------------
    \1\ The Federal Highway Administration defines structurally 
deficient bridges as those characterized by deteriorated conditions of 
significant bridge elements and reduced load-carrying capacity and 
typically require significant maintenance and repair to remain in 
service. A bridge is functionally obsolete when it does not meet 
current design standards either because the volume of traffic carried 
by the bridge exceeds the level anticipated when the bridge was 
constructed and/or the relevant design standards have changed. 
Addressing functional deficiencies may require the widening or 
replacement of the structure.
---------------------------------------------------------------------------
    The importance of bridges cannot be ignored. Within the State of 
Washington there are over 65 million bridge crossings a day with 
approximately 10 million of these crossings occurring on locally owned 
bridges. While bridges are a small part of the total road miles, they 
provide vital links in the transportation system, not only spanning 
rivers but also separating traffic at rail crossings and highway to 
highway crossings. However, replacement and rehabilitation of these 
links are of significantly higher cost on a per mile basis than other 
aspects of the transportation system.
    We can no longer afford to ignore the underinvestment in bridge 
maintenance, rehabilitation and replacement. Additional traffic volumes 
and heavier loads are placing ever greater stress on bridges often 
designed for lighter loads. Underinvestment is a major contributing 
factor undermining efforts to adequately address the deficiencies.
    At the local level in particular, local governments' ability to 
fund necessary bridge improvements has eroded significantly over the 
years. Local governments have limited financial means to adequately 
address bridge deficiencies and typically do not have the capacity to 
do major repairs or capital work on the scale of bridge replacement 
without funding support. Immediate action to increase investment at the 
national level is crucial if we are to accelerate local bridge repair 
and replacement programs.
    The needs at the local level are especially significant. Twenty-
seven percent of local bridges are structurally deficient or 
functionally obsolete. Of that, 15 percent are structurally deficient 
as compared to 7 percent of State-owned bridges. Of the almost 67,000 
structurally deficient bridges in our Nation, more than half of them 
are the responsibility of local government.
    Bridges on local roads typically were built to accommodate lower 
traffic volumes and smaller, lighter vehicles or are so old and 
deteriorated they are in urgent need of repair or replacement. In many 
cases, they were not designed to take the pounding current traffic 
volumes and loads demand. As congestion increases on the interstate 
system and State highways, local roads become diversion routes, 
supporting ever increasing levels of usage. Freight volumes, too, are 
increasing, adding demands on all parts of the system.
    Deficient local bridges are rated, prioritized and repaired or 
replaced as funding is available. When funding is insufficient, 
deferred maintenance, increased inspections, weight limits and closures 
are often the only options. It is not uncommon for bridges to go years, 
even decades, without the appropriate action to repair or replace them, 
due to lack of funds. This is particularly true in more rural areas.
    APWA has been and will continue to be an advocate for the 
development of public policies which ensure the safe and efficient 
management and operation of our public infrastructure. We support a 
determined, comprehensive national effort to increase investment to 
eliminate the bridge funding backlog needed to repair, rehabilitate and 
replace all publicly owned bridges as part of a zero bridge 
deficiencies goal.
    Such an effort, however, should not stop there. It needs sustained 
and sustainable funding to ensure ongoing system preservation and 
maintenance at a level necessary to prevent future deficiencies of all 
publicly owned bridges.
    MAP-21, Moving Ahead for Progress in the 21st Century, provides a 
short-term, 2-year investment in our transportation system. With the 
Highway Trust Fund on the brink of insolvency, we urge the Congress to 
begin work immediately on a long-term authorization that provides a 
sustainable revenue source to avert a looming funding shortfall that 
threatens not only the ability to adequately address bridge 
deficiencies but also the many other pressing transportation needs. The 
Congressional Budget Office reports that the Trust Fund will be unable 
to meet all of its obligations beginning in fiscal year 2015. Inaction 
to address this shortfall could result in Federal transportation 
programs being cut by about 90 percent to bring the Trust Fund into 
balance.
    We support a well-funded, multi-year surface transportation 
authorization that provides an increased and sustainable funding source 
for road and bridge needs, strengthens local decisionmaking authority, 
directs more resources to local priorities and does more to streamline 
and accelerate the project delivery process.
    In addition, we support a mix of revenue options to ensure 
necessary funding sustainability, including: raising and indexing the 
Federal motor fuel tax; exploring the transition to vehicle-mileage 
fees; and expanding access to innovative financing tools.
    MAP-21 eliminated the Highway Bridge Program. MAP-21's National 
Highway Performance Program provides funding for bridges on the 
National Highway System (NHS). Although the Surface Transportation 
Program retains the 15 percent set-aside for off-system bridges 
(bridges not on the Federal system), we need to ensure adequate funding 
for local bridges on the Federal system but not on the NHS.
    In conclusion, our transportation system is aging, deteriorating 
and suffering the effects of decades of underinvestment. The result is 
the unacceptably high levels of deficiencies we see today. We believe 
that, working together in partnership with local, State, Federal, and 
private sector partners, we must take immediate action to address our 
crumbling infrastructure. But it will take funding and leadership. 
Increased investment to repair or replace deficient bridges is vital to 
achieve a safer and more efficient transportation network.
    Madam Chairman, we thank you for holding this hearing and are 
especially grateful to you and subcommittee members for the opportunity 
to submit this statement. We stand ready to assist you and the 
subcommittee as we move forward to address our Nation's infrastructure 
needs.
                                 ______
                                 
     Prepared Statement of the American Society of Civil Engineers

    The American Society of Civil Engineers (ASCE) \1\ is pleased to 
present to the subcommittee our views on the state of the Nation's 
infrastructure, as well as the challenges ahead and investments needed.
---------------------------------------------------------------------------
    \1\ ASCE was founded in 1852 and is the country's oldest national 
civil engineering organization. It represents more than 146,000 civil 
engineers individually in private practice, government, industry, and 
academia who are dedicated to the advancement of the science and 
profession of civil engineering. ASCE is a nonprofit educational and 
professional society organized under part 1.50(c)(3) of the Internal 
Revenue Code.
---------------------------------------------------------------------------
    ASCE was relieved that there were no fatalities or serious injuries 
due to the I-5 bridge collapse. While we await to hear from the 
National Surface Transportation Safety Board as to the cause of the 
collapse, there are reports that an oversized vehicle may have played a 
significant role in the incident. What we do know is that the bridge is 
one of 84,748 functionally obsolete bridges in this country and served 
as a critical link to our economy and trade. Therefore, the ripple 
effect of the bridge collapse will have significant economic 
repercussions. In fact, the Director of the Washington State Department 
of Commerce said that the I-5 bridge collapse could cost the State of 
Washington at least $47 million in lost economic output, as well as 
lost jobs and tax revenues.

             2013 REPORT CARD FOR AMERICA'S INFRASTRUCTURE

    ASCE's 2013 Report Card for America's Infrastructure graded the 
Nation's infrastructure a ``D+'' based on 16 categories and found that 
the Nation needs to invest approximately $3.6 trillion by 2020 to 
maintain the national infrastructure in good condition. The following 
are the grades and the investment needs by 2020 for the surface 
transportation area:
  --Bridges received a grade of C+;
  --Transit received a D;
  --Roads received a grade of D, and combined with bridges, and 
        transit, have an estimated investment need of $1.7 trillion; 
        and
  --Rail received a grade of C+ and has an estimated investment need of 
        $100 billion.
    While taken for granted by most Americans, our infrastructure is 
the foundation on which the national economy depends. As the economy 
grows, these infrastructure assets must be maintained and improved 
accordingly. While the interstate highway system is a shining example 
of a focused national vision for the Nation's infrastructure, an ever 
expanding population and a growing economy requires these aging 
infrastructure systems to keep pace. Deteriorating and aging 
infrastructure is not only an inconvenience, it financially impacts our 
families, local communities, and our entire country.
    In an effort to see how significant investments are to the Nation's 
infrastructure, ASCE released a series of economic studies that answer 
a critical question--what does a ``D+'' mean for America's economy and 
what is the return on investment we can expect to see. The Failure to 
Act studies compare current and projected needs for infrastructure 
investment against the current funding trends in surface transportation 
(highways, bridges, rail, transit); water and wastewater; electricity; 
and airport and waterborne transportation. The series concluded with a 
final report, Failure to Act: The Impact of Current Infrastructure 
Investment on America's Economic Future, which found improving the 
condition of our Nation's aging roads, bridges, power lines, sewer 
systems, ports and waterways is critical to protecting 3.5 million 
jobs.
    The final summary report found that between now and 2020, 
investment needs across key infrastructure sectors total $2.75 
trillion, while projected expenditures are about $1.66 trillion, 
leaving a total investment gap of $1.1 trillion. This gap leads to 
consequences like congestion, water main breaks, and blackouts and 
brownouts that cost households and businesses money, creating a drag on 
our economy. However, with an additional investment of $157 billion a 
year between now and 2020, the U.S. can eliminate this drag on economic 
growth and protect:
  --$3.1 trillion in GDP;
  --$1.1 trillion in U.S. trade value;
  --3.5 million jobs;
  --$2.4 trillion in consumer spending; and
  --$3,100 in annual household income.
    In order to avoid the severe economic impacts that would be caused 
by failing to invest in our infrastructure at home, the Federal 
Government is allowing other countries to make up where the United 
States is failing. It is long established that money invested in 
essential public works can create jobs, provide for economic growth, 
and ensure public safety through a modern, well-engineered national 
infrastructure. By improving the Nation's deteriorating infrastructure 
system both economic and job creation opportunities will be provided, 
while creating a multi-modal transportation system for the 21st 
century.

                     HIGHWAY AND BRIDGE CONDITIONS

    The health of our Nation's highways and bridges serves as a 
critical link moving people and goods throughout the country, therefore 
they are directly tied to the Nation's ability to compete in a global 
marketplace. For this reason, it is of growing concern that the bridges 
in our Nation's metropolitan areas, which are an indispensable link for 
both millions of commuters and freight on a daily basis, are decaying. 
Meanwhile, 42 percent of America's major urban highways remain 
congested, costing the economy an estimated $101 billion in wasted time 
and fuel annually.
    Over 200 million trips are taken daily across deficient bridges in 
the Nation's 102 largest metropolitan regions. In total, one in nine of 
the Nation's bridges are rated as structurally deficient, while the 
average age of the Nation's 607,380 bridges is currently 42 years. 
Overall, we are seeing a decline in the number of deficient bridges; 
however, current funding levels are still not enough to fulfill all of 
the repair and replacement needs.
    The I-5 bridge over the Skagit River in Washington was not 
structurally deficient; however, the bridge was 58 years old and 
classified as functionally obsolete. A functionally obsolete bridge no 
longer meets the current engineering and design standards that are used 
today, with examples being narrow lanes or low load-carrying capacity. 
While functionally obsolete bridges might not pose the same risks as 
structurally deficient bridges, which require significant 
rehabilitation or replacement due to deterioration, they still demand 
consideration, maintenance, and proper postings. Therefore, even though 
we are seeing a slow, but steady decline in the overall number of 
deficient bridges, nationally we still have significant work to do. 
Nationally, we must focus not just the number of structurally deficient 
bridges, but functionally obsolete bridges as well.
    Turning to our Nation's roads, 32 percent of America's major roads 
are in poor or mediocre condition. While the Nation has seen some 
improvements in pavement conditions due to a short surge of investment 
from the American Recovery and Reinvestment Act, these were not 
sustained, long-term investments. Of added concern are the vehicular 
restrictions for some roadways due to poor pavement, which can create 
longer routings for trucks in cases where detours are required. 
Deficient pavements are more common in urban versus rural areas, with 
47 percent of urban interstate vehicle miles traveled (VMT) over 
deficient pavements compared to 15 percent of rural interstates. The 
ultimate cost of poor road conditions is significantly more over time 
than the cost to maintain those same roads in good condition. For 
example, after 25 years the cost per lane mile for reconstruction can 
be more than three times the cost of preservation treatments over the 
same time period, which can lead to a longer overall life span for the 
infrastructure.

                  HIGHWAY AND BRIDGE INVESTMENT NEEDS

    Federal, State, and local highway and bridge investments are not 
keeping pace with the growing costs of the aging infrastructure.
    Estimates state that to maintain all of the Nation's highways at 
their current condition would cost $101 billion in annual capital 
investment between 2008 and 2028. In order to improve the Nation's 
highways, investment would need to rise to $170 billion annually, or an 
additional $79 billion annually from current investments, during that 
same time period. This investment would bring the number of Federal-aid 
highway vehicle miles traveled on pavements with a good ride quality up 
from 46 percent in 2008 to 74 percent by 2028. Unfortunately, Federal, 
State, and local governments are only spending $91 billion annually on 
capital investments, meaning that each year our roads deteriorate 
further. If present trends continue, the unfunded gap in highway 
funding, which is 48 percent of the total need in 2010, is expected to 
increase to 54 percent by 2040.
    When zeroing in on just the Nation's bridges, the Federal Highway 
Administration (FHWA) estimates that the current cost to repair or 
replace only the deficient bridges eligible under the Federal Highway 
Bridge Program is almost $76 billion. This total is up from 2009, when 
FHWA estimated that the total cost was $71 billion. If bridge 
maintenance continues to be deferred over the next 25 years, these 
backlog costs will rise. To put these numbers in perspective, over the 
last 30 years Congress has provided approximately $77 billion to the 
States through the Federal-aid bridge program. The Federal Highway 
Administration estimates that to eliminate the bridge backlog by 2028, 
the Nation would need to invest $20.5 billion annually; however, at 
this time only $12.8 billion is being spent annually on the Nation's 
bridges.

                           HIGHWAY TRUST FUND

    With the current surface transportation authorization (MAP-21) 
expiring next September, Congress will soon need to begin discussions 
on how to fund a new multi-year surface transportation authorization 
and more importantly how to make the Highway Trust Fund sustainable as 
a long-term revenue source. Therefore, due to the Nation's growing 
surface transportation needs, Congress must first appropriate the 
funding levels that were authorized under MAP-21, while also tackling a 
way to provide a long-term, reliable, and sustainable approach toward 
fixing the Highway Trust Fund.
    A key reason for the current decline in transportation spending is 
the fact that Federal revenues supporting the Highway Trust Fund have 
not been adjusted since 1993; however demands on the system have grown. 
As a result, current levels of highway and public transportation 
investment cannot be maintained solely with trust fund resources and 
Congress has had to rely on the General Fund to shore up resources.
    Currently, the Highway Trust Fund is allocating more than the 
revenues it receives, with the trust fund allocating $15 billion more 
in 2012 alone. The Congressional Budget Office (CBO) recently projected 
that to prevent a massive shortfall for highway and transit spending in 
2015, Congress will need to severely cut highway spending, transfer $14 
billion to the Highway Trust Fund from the General Fund, raise the 
Federal gas tax by about 10 cents per gallon, or implement some 
combination of the three. The current solution provided by the Obama 
administration is to once again transfer funds from the General Fund, 
which is not a long-term solution for funding highway and transit 
programs.

                          ASCE RECOMMENDATIONS

    While additional funding is critical to improving the Nation's 
highways and bridges, it is not the only solution. ASCE recommends the 
following solutions in order to begin bring the Nation's roads and 
bridges into a state of good repair:
  --Ensure the sustained sufficiency and reliability of the Highway 
        Trust Fund by identifying and incorporating necessary 
        additional revenue streams.
  --Encourage the use of asset management programs to provide for the 
        most efficient use of maintenance and repair investment.
  --Make the repair of structurally deficient urban bridges a top 
        national priority through the implementation of a risk-based 
        prioritization model.
  --Increase annual investment levels for bridge repair, 
        reconstruction, and renovation by approximately $8 billion 
        annually from all levels of government, to a total annual 
        funding level of $20.5 billion.
  --Develop a national strategic plan for addressing the Nation's 
        structurally deficient and functionally obsolete bridges in the 
        upcoming decades, including long-term transportation research 
        in order to develop more resilient bridges.
  --Set a national goal to decrease the number of just structurally 
        deficient bridges to 8 percent by 2020 and decrease the 
        percentage of the population driving over all deficient bridges 
        by 75 percent by 2020.

                               CONCLUSION

    Continuing to maintain baseline levels of investment for the 
Nation's roads and bridges only allows us to maintain the inadequate 
conditions that our current surface transportation systems are under. 
Without developing a long-term, reliable user fee approach for the 
Highway Trust Fund, surface transportation programs will continue to 
live under a cloud of uncertainty for the years to come and necessary 
improvements cannot be full addressed. A transportation system cannot 
run properly when it must rely on transfers from the General Fund in 
order to remain solvent. Congress must take the lead in addressing this 
problem to ensure continuity in the Nation's surface transportation 
program. In the short term, ASCE is pleased to see that Congress is 
fully appropriating the funding levels that have been authorized by 
MAP-21 and that Senators continue to push the need to upgrade the 
Nation's aging infrastructure. However, making a strong commitment to 
the Nation's surface transportation system without the proper funding 
does not solve our long term infrastructure needs.
    The longer Congress waits to properly fund surface transportation 
programs, the greater the problem will become. Inaction will lead to a 
further deterioration of the Nation's surface transportation assets, a 
continuation of high levels of traffic fatalities and more wasted time 
and fuel due to increased congestion creating a further drag on the 
economy. Therefore, ASCE stands ready to work with Congress as it works 
to fund our Nation's vital transportation assets.
                                 ______
                                 
Prepared Statement of the California Association of Housing Authorities

    Thank you for the opportunity to present written testimony 
regarding the fiscal year 2014 Department of Housing and Urban 
Development (HUD) budget. The California Association of Housing 
Authorities (CAHA) represents the 113 housing authorities in the State 
of California. Together, we administer approximately 320,000 section 8 
housing choice vouchers for the elderly, disabled, and families with 
children; partner with the Veterans Administration to provide housing 
vouchers for 8,100 homeless veterans; and own approximately 39,100 
public housing units. In addition, we provide housing and supportive 
services to thousands of very low income households under an array of 
other HUD and non-HUD programs, including the Low Income Housing Tax 
Credit. Our testimony pertains to the Housing Choice Voucher (HCV) 
Program and the Public Housing Program.
    Housing Choice Voucher Program.--The fiscal year 2013 budget funded 
us at a 92.5 percent proration for the HCV Program. This is the lowest 
level in the 38-year life of the HCV Program. As a result, housing 
authorities are drafting procedures to terminate existing tenants from 
the HCV Program and HUD has estimated that 125,000 families nationwide 
could lose their housing assistance, some 15,700 in California. These 
are families who have already signed leases with their landlords--
landlords who, likewise, are dependent on the HCV Program subsidy 
payments to make their mortgage payments. The mission of housing 
authorities is to house people, not terminate their assistance 
resulting in homelessness. We understand that increasing funding for 
the HCV Program to serve all potentially eligible families is not 
possible in these economic times. However, we ask that you provide 
sufficient funding in the fiscal year 2014 budget to renew assistance 
to all current participants so that no family loses its housing.
    HCV Program Administrative Fees.--Housing authorities are paid 
according to a formula to administer the HCV Program. The fiscal year 
2013 budget funded us at a 69 percent proration which, like the HCV 
rental subsidy, is the lowest in the 38-year history of the Program's 
operation. While some may say that 100 percent of the formula is too 
rich CAHA believes that no one can argue that 69 percent is sufficient.
    The HCV Program Administrative Fee proration has been steadily 
decreasing over the last 5 years as follows: 2009--88 percent; 2010--93 
percent; 2011--85 percent; 2012--80 percent and 2013--69 percent. To 
manage, housing authorities are doing lay-offs, mandating furloughs, 
cutting salaries and benefits and reducing office hours. According to 
the National Association of Housing and Redevelopment Officials 
(NAHRO), since fiscal year 2003, the last time housing authorities 
received 100 percent of their Administrative Fee, 213 housing 
authorities have ``handed back'' their HCV Program to HUD or 
transferred it to another housing authority.
    CAHA believes that it takes people to help people. Housing 
authority staff determine family eligibility and rent annually, 
maintain the waiting list, inspect every unit every year per HUD's 
Housing Quality Standards, outreach to landlords, conduct criminal 
background checks, maintain program integrity and prevent fraud, and 
counsel families to find appropriate housing. These activities are 
labor intensive, particularly as the regulatory requirements are overly 
burdensome and far in excess of what would be required to administer a 
sound, integrity-based HCV Program. In addition to restoration of the 
Administrative Fee funding to a 90 percent proration, CAHA respectfully 
asks that you include five regulatory relief measures in your 
deliberations:
    1. Biennial Inspections.--The HCV Program requires annual 
inspections of all subsidized units. Moving to a biennial schedule 
would reduce inspection work by 50 percent. Most Moving to Work (MTW) 
agencies have already successfully adopted initiatives that reduce unit 
inspections to a biennial schedule with special monitoring/sanctions 
for units that fail to meet standards.
    2. Biennial or Triennial Income Recertifications for Fixed Income 
Households.--The HCV Program requires annual recertification of all 
participating households. However, approximately 50 percent of section 
8 households are elderly and/or disabled and typically have fixed 
incomes. Most MTW agencies have already successfully adopted 
initiatives that permit biennial or triennial recertifications for 
fixed income households.
    3. Adoption of a National Waiver for Reduction of Payment 
Standards.--The HCV Program requires subsidy levels, called ``payment 
standards,'' pegged to 90-110 percent of local fair market rents 
(FMRs). When funding is insufficient, regulations permit housing 
authorities to apply to HUD for a waiver to reduce the payment standard 
below 90 percent. Each request is handled individually by HUD and takes 
a remarkable amount of time and resources to process. During this 
section 8 funding crisis, CAHA requests that HUD process a nationwide 
waiver for payment standards as low as 80 percent for housing 
authorities with insufficient section 8 funding from HUD to meet the 
subsidy requirements of their outstanding vouchers.
    4. Reduced Payment Standard Waiver Implementable Immediately.--Per 
HUD regulations, the waiver permitting a reduction in payment standards 
cited in No. 3 above may only be implemented over the course of 1-2 
years. CAHA requests that the proposed nationwide waiver be 
implementable on an immediate basis.
    5. Treasury Offset Program.--The Treasury Offset Program is a 
centralized offset program, administered by the Financial Management 
Service's Debt Management Services, to collect delinquent debts owed to 
Federal agencies and States, typically through Internal Revenue Service 
(IRS) refunds offset of another U.S. Government-issued payment. 
Authorization for housing authorities to participate in the program 
would assist in the collection of debts owed by current or former HCV 
Program and Public Housing Program participants. Amounts recovered 
would become available for current program expenses. The State of 
California Employment Development Department (EDD) already permits this 
activity at the State level.
    Public Housing.--The Public Housing Operating Fund is supposed to 
cover the difference between the rent paid by public housing residents 
and the housing authorities' cost to manage the housing. The Operating 
Fund was structured based on a cost study of well-managed multifamily 
housing done by Harvard University. Despite the study, however, over 
the last 10 years (except for American Recovery and Reinvestment Act of 
2009 (ARRA) funds provided in 2010) the Operating Fund has not been 
funded at 100 percent of the formula and in fiscal year 2013 was at 
only 82 percent.
    The President's fiscal year 2014 budget requests $4.6 billion for 
the Operating Fund. According to HUD, this figure represents 90 percent 
of estimated eligibility under the Operating Fund formula. CAHA 
respectfully asks that the subcommittee appropriate operating funds at 
the 90 percent proration level at a minimum; full funding would be at 
$5.17 billion.
    The President's fiscal year 2014 budget also requests $2 billion 
for the Public Housing Capital Fund, which housing authorities use to 
make major capital improvements to their public housing. For fiscal 
year 2013, the Capital Fund received only $1.789 billion after 
accounting for the impact of sequestration, the lowest level in the 
history of the Public Housing Program. The President's budget 
anticipates that, after set-asides, approximately $1.95 billion would 
be applied toward formula Capital Fund grants for fiscal year 2014. 
This request continues to fall far short of the $3.4 billion in 
annually accruing capital needs estimated by the 2010 Abt Associates' 
Capital Needs Assessment study commissioned by HUD. No funding to build 
additional, new public housing has been provided in years, so it is 
critical to preserve and sustain the public housing that exists. CAHA 
respectfully asks that the subcommittee appropriate $3 billion for the 
Capital Fund.
    CAHA understands well our Nation's budget issues and is poised to 
do its part. Other than full funding to protect all tenants currently 
receiving HCV Program assistance, all of our funding requests are for 
less than the formula amounts. The 5 percent cut imposed by 
sequestration does not necessarily sound unreasonable--but it is not 
just a 5 percent cut. It is 5 percent cut from the lowest amount 
historically appropriated for our housing programs and will have 
significant impacts on some of our country's poorest citizens.
    Thank you for considering our requests.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors

    The Coalition of Northeastern Governors (CONEG) is pleased to share 
with the subcommittee on Transportation, Housing and Urban Development, 
and Related Agencies this testimony for the record on fiscal year 2014 
appropriations for surface transportation, rail, and community 
development programs. The CONEG Governors deeply appreciate the 
subcommittee's longstanding support of funding for these programs. 
Federal support is vital to maintaining the national transportation 
system, enhancing its capacity to meet enormous and diverse needs, and 
contributing to a balanced, integrated national transportation system 
that supports the Nation's current and future economic growth. As the 
Nation's population grows and the economy recovers, these needs 
confront all of us--Federal, State and local governments and the 
private sector.
    The Governors recognize that the subcommittee, in crafting the 
fiscal year 2014 appropriations measure, faces a very difficult set of 
choices in an environment of severe fiscal constraints. Funding the 
Nation's surface transportation programs in fiscal year 2013 at the 
funding levels authorized in the Moving Ahead for Progress in the 21st 
Century Act (MAP-21) (Public Law 112-141) was a significant 
accomplishment. They thank the subcommittee for its support and urge 
you to continue this strong Federal/State partnership so vital for a 
national, integrated, multi-modal transportation system. This system 
underpins the competitiveness of the Nation's economy; broadens 
employment opportunities; and contributes to the efficient, safe, 
environmentally sound, and energy efficient movement of people and 
goods.

                         SURFACE TRANSPORTATION

    The CONEG Governors urge the subcommittee to fund the highway 
obligation ceiling at the authorized levels, adequately fund safety and 
innovative financing programs, and maintain at least the fiscal year 
2013 levels for public transit programs. These levels of Federal 
investment are the minimum needed to slow the decline in infrastructure 
conditions and maintain the safety of the Nation's highways, bridges, 
and transit systems.
    Continued and substantial Federal investment in these 
infrastructure improvements--in urban, suburban, exurban, and rural 
areas--is necessary to safely and efficiently move people and products 
and to support the substantial growth in freight movement projected in 
the coming decades. The Federal Government has invested significant 
resources in the Nation's transportation systems, and it has a 
continuing responsibility to maintain and enhance the capacity of the 
Nation's transportation infrastructure to keep America competitive in a 
global economy.
    Specifically, the CONEG Governors urge the subcommittee to:
  --Fund the highway obligation ceiling at the authorized levels;
  --Fund public transit programs at no less than the authorized levels, 
        with full funding for the current transit formula grants and 
        capital investment grants, preserving the historic funding 
        balance between these programs;
  --Ensure that Federal transit funds are released to States and 
        designated recipients in a timely manner; and
  --Expand the use of innovative financing and public-private 
        partnerships to supplement direct Federal funding, including 
        Federal loan guarantees and credit assistance, such as the 
        Transportation Infrastructure Finance and Innovation Act 
        program (TIFIA).

                                  RAIL

    The Governors deeply appreciate the subcommittee's continued 
support for Amtrak and the funding in prior years for intercity 
passenger rail capital assistance. Recognizing that Congress will 
undertake a new authorization of the rail program to follow the 
Passenger Rail Investment and Improvement Act of 2008 (PRIIA) (Public 
Law 110-432), they urge the subcommittee to provide fiscal year 2014 
funding for intercity passenger rail capital assistance. Significant 
funding for intercity passenger rail, in addition to the Amtrak 
funding, will allow efficient intercity passenger rail corridors to be 
developed as part of a national, multi-modal transportation system. In 
the Northeast, continued, adequate Federal investment is critical to 
bring the current system to a state of good repair; help expand its 
capacity to meet the growing ridership; provide improved service to 
communities; attract State, local and private sector investments in the 
intercity passenger rail system; and develop a coordinated, 
comprehensive vision and plan for future services. These investments 
are essential for the accessible, reliable, frequent and on-time 
service that attracts and retains ridership and grows revenues.
    The Northeast has one of the oldest and most extensive multi-modal 
transportation systems in the world. This system faces major congestion 
and capacity constraints which, if not addressed, have the potential to 
curtail future commerce and mobility in a region that is densely 
populated and serves as an economic engine for the Nation. To begin to 
address these capacity constraints, the Northeast States have already 
invested significantly in the passenger rail corridors of the region--
the Northeast Corridor (NEC), the Empire Corridor, the Northern New 
England Corridor, and the Keystone Corridor. They have leveraged 
Federal funds appropriated for intercity passenger rail projects 
eligible under the framework created by PRIIA. The intense efforts of 
the States, Amtrak and freight railroads in recent years are now 
showing positive results in the Nation's busiest rail corridor. 
However, continued significant investments in this corridor network are 
needed to meet the growing intercity passenger travel market. The joint 
planning and funding initiatives over the past years are part of an on-
going coordinated effort to improve service by reducing travel times, 
increasing speed, increasing service reliability and on-time 
performance, and eliminating choke points; while improving 
infrastructure through station upgrades, replacing aging bridges and 
electrical systems, installing track and ties, replacing catenary 
wires, and purchasing new locomotives. Among the active collaborative 
projects that are employing thousands of workers using American-made 
supplies are the following:
  --Maine's Northern New England Passenger Rail Authority (NNEPRA) is 
        managing a project to add double track and replace rail in 
        Massachusetts on the portion of the Downeaster line owned by 
        the Massachusetts Bay Transportation Authority (MBTA). These 
        improvements will enhance Downeaster reliability/on-time 
        performance and set the stage for more Downeaster frequencies. 
        NNEPRA received a Federal Railroad Administration (FRA) grant 
        and the MBTA provided a match.
  --The Delaware Department of Transportation, the University of 
        Delaware, and the City of Newark are designing and building a 
        regional transportation center, on former industrial property 
        acquired by the University of Delaware, to serve Amtrak, 
        Southeastern Pennsylvania Transportation Authority, and 
        Delaware public transit. Preliminary engineering is anticipated 
        for the summer of 2013.
  --In Massachusetts, work currently is underway to re-route Amtrak's 
        Vermonter will expand service to new communities, connecting 
        Vermont, western Massachusetts and central Connecticut to the 
        Northeast Corridor and Washington, DC. Upgrades to this 
        ``Massachusetts Knowledge Corridor'' include installing 50 
        miles of new rail (made in Steelton, Pennsylvania) and 
        replacing approximately 75,000 ties. This project builds upon 
        work completed in Vermont that has reduced travel time by 
        almost 1 half-hour.
    Amtrak.--The Amtrak fiscal year 2014 budget request contains 
specific funding levels provided for operations, capital and debt 
service. These funding levels will enable Amtrak to continue a balanced 
program of adequate, sustained capital investment in infrastructure and 
fleet modernization programs that are vital for an efficient intercity 
passenger rail system that can meet the rising demand for reliable, 
safe, quality services.
    The Amtrak capital request encompasses investments urgently needed 
to maintain the Northeast Corridor and other Amtrak-owned or maintained 
infrastructure and equipment; advance the Gateway Program to expand 
track, tunnel and station capacity between Newark, New Jersey, and New 
York Penn Station; acquire new equipment; and improve accessibility for 
passengers with disabilities.
    The Governors also strongly urge the subcommittee to provide Amtrak 
the requested levels of funding that will allow improved intercity 
service on the NEC--the backbone of a passenger rail network that 
connects the entire Northeast and extends rail service to communities 
in the South, West, and Canada. These projects are initial steps 
required to address the backlog of deferred investments, and to make 
investments in near-term improvements in track, bridges, tunnels, and 
equipment that will increase the capacity of the NEC to offer more 
reliable and frequent intercity service that can deliver more riders to 
their destination in less travel time. Improvements on the NEC can also 
help address the congested highway corridors and crowded Northeast 
airports that are a major source of travel delays nationwide.
    Intercity Passenger Rail Corridors.--To advance the initial 
investments made by the Federal Government and the States, the 
Governors urge the subcommittee in fiscal year 2014 to fund a 
competitive Intercity Passenger Rail Corridor Capital Assistance 
Program, and to provide provisions that fund the planning activities 
for the development of passenger rail corridors, including multi-state 
corridors. The multi-state planning funds are the source of the monies 
that support the continuation of the work being led by the FRA, working 
cooperatively with the Northeast States, to develop an updated service 
development plan and environmental analysis that reflect the current 
and projected demand for passenger rail service on the NEC. A funding 
level of $25 million is needed in fiscal year 2014 for the completion 
of these analyses which are required for any future major improvements 
for higher-speed intercity passenger rail service on the NEC.
    Since these corridors serve diverse travel markets, the Governors 
urge that these grant funds be available to States to advance plans for 
reliable, travel-time competitive service, regardless of maximum speed 
requirements. In light of the stringent FRA requirements for intercity 
passenger rail grants, they request the subcommittee waive the current 
statutory requirement that projects be part of an approved State rail 
plan, since this requirement might curtail thoughtful and well-advanced 
efforts already underway by the States.
    Northeast Corridor Infrastructure and Operations Advisory 
Commission.--The Governors thank the subcommittee for providing funding 
for the Northeast Corridor Infrastructure and Operations Advisory 
Commission (Commission). Consistent with its responsibilities defined 
under PRIIA, the Commission is working actively to facilitate mutual 
cooperation and planning among the States, Amtrak, freight railroads, 
and the FRA for intercity, commuter and freight use of the Corridor--
and to also maximize the economic growth and the energy and 
environmental benefits of the larger regional NEC network.
    The Commission has extensive responsibilities to set corridor-wide 
policy goals and recommendations that encompass passenger rail 
mobility, intermodal connections to highways and airports, reduced 
energy consumption, air quality improvements, and local and regional 
economic development of the entire Northeast region. It is also tasked 
with developing a standardized formula to determine and allocate the 
costs, revenues and contributions among NEC commuter railroads and 
Amtrak which use each other's facilities and services. The Commission's 
work will also guide the vision and service development plans that are 
a pre-requisite to fund projects that can improve the capacity of the 
NEC. To conduct the assessments required by Congress in a timely 
manner, the Commission needs resources, data and expert analysis that 
exceed that which is currently available through the staff of the 
States, Amtrak and FRA. Continued funding in fiscal year 2014 will 
ensure the Commission's ability to secure all essential resources for 
conducting these assessments.
    Other Programs.--A number of other national rail and intermodal 
programs are important components of the evolving Federal-State-private 
sector partnerships to enhance passenger and freight rail across the 
country.
    The Railroad Rehabilitation and Improvement Financing Program 
(RRIF) can be an important tool for railroads (particularly regional 
and short-line railroads) and public agencies to access the financing 
needed for critical infrastructure and intermodal projects. The 
Governors also encourage the subcommittee to provide funding for the 
Rail Line Relocation program, the Next Generation Corridor Train 
Equipment Pool, and critical rail safety programs.
    The Governors support the continuation of the Transportation 
Investment Generating Economic Recovery, or TIGER Discretionary Grant 
program, at $500 million to encourage investment in multi-modal, multi-
jurisdictional or other road, rail, transit and port projects that help 
achieve critical national objectives.
    Adequate funding is needed for the Surface Transportation Board to 
carry out its expanded responsibilities for intercity passenger rail 
corridor service, including its specific responsibilities under PRIIA 
regarding equitable cost-sharing formulas among States, Amtrak and 
commuter railroads.

                   COMMUNITY DEVELOPMENT BLOCK GRANT

    The CONEG Governors urge the subcommittee to provide $3.3 billion 
in formula funding for the Community Development Block Grant (CDBG) 
program. This program, which enables States to invest in improved local 
infrastructure, rehabilitated affordable housing, and local economic 
development and jobs, has a proven track record of contributing to 
neighborhood and community redevelopment and improvement nationwide. 
Every $1 invested in CDBG leverages an additional $3.55 in non-CDBG 
funding.

                               CONCLUSION

    In conclusion, the CONEG Governors urge the subcommittee to:
  --Fund the highway obligation ceiling at the authorized levels;
  --Expand the TIFIA program;
  --Fund Federal public transit programs at the authorized levels, with 
        full funding for the transit formula grants and capital 
        investment grant programs, and preserving the historic funding 
        balance between these programs;
  --Fund Amtrak at levels that will support sound operations and a 
        balanced capital investment program, including the NEC capacity 
        improvements;
  --Maintain provisions to fund the Northeast Corridor Infrastructure 
        and Operations Advisory Commission;
  --Provide funding for the Intercity Passenger Rail Service Corridor 
        Assistance Program for corridor planning and capital 
        investment, including provisions for multi-state corridor 
        planning;
  --Provide funding for such national rail programs as the Next 
        Generation Corridor Train Equipment Pool, the Rail Line 
        Relocation program and the RRIF program;
  --Provide $500 million for the TIGER program;
  --Provide adequate funding for the Surface Transportation Board; and
  --Provide formula funding for the Community Development Block Grant 
        at the $3.3 billion level.
    The CONEG Governors thank the entire subcommittee for the 
opportunity to share these priorities and appreciate your consideration 
of these requests.
                                 ______
                                 
                   Prepared Statement of Easter Seals

    Thank you for this opportunity to submit testimony on behalf of 
Easter Seals about two collaborative partnerships we administer with 
the Federal Transit Administration. We appreciate the strong support of 
the subcommittee over the years and look forward to continuing to work 
to increase the mobility of people with disabilities and older adults.
    Easter Seals respectfully requests that the subcommittee include 
report language in the fiscal year 2014 transportation appropriations 
bill providing no less than $3 million for Project ACTION and no less 
than $1 million for the National Center on Senior Transportation within 
the Standards Setting and Technical Assistance account at the Federal 
Transit Administration.

                          ABOUT PROJECT ACTION

    People with disabilities rely on public transportation to travel to 
work and to access services, supports and entertainment in their 
communities. Recognizing the need to improve access to public 
transportation for people with disabilities, Congress in 1988 
established a national technical assistance center called Project 
ACTION to partner with transportation providers, the disability 
community and others to promote universal access to transportation for 
people with disabilities. Congress recently reauthorized Project ACTION 
through the Moving Ahead for Progress in the 21st Century Act (MAP-21). 
Project ACTION is funded by the U.S. Department of Transportation's 
Federal Transit Administration (FTA) out of the standards development 
and technical assistance account. Easter Seals, Inc. won the 
competitive bid to manage Project ACTION for FTA.

 COLLABORATING WITH PUBLIC TRANSIT OPERATORS TO INCREASE ACCESSIBILITY 
                          AND IMPROVE SERVICES

    Project ACTION is the preeminent resource in the country for 
helping increase the mobility of people with disabilities. The project 
does an exemplary job of gathering and sharing best practices; 
providing technical assistance and training; facilitating strategic 
partnerships and community engagement to support the development and 
coordination of transportation options; developing and disseminating 
information, including the use of web-based and social media vehicles; 
and administering demonstration grants.
    Project ACTION's accomplishments include:
  --Creating a strong collaborative environment between the disability 
        and transit community;
  --Creating hundreds of useful guides, resources, tools and other 
        resources on critical issues affecting mobility for people with 
        disabilities and older adults that are available to transit 
        providers, disabilities and the general public for free;
  --Providing direct technical assistance to transit providers, people 
        with disabilities and others through in-person, phone, online 
        and other consultation;
  --Creating and delivering direct training on critical mobility issues 
        affecting people with disabilities, transit providers and 
        community planners; and
  --Working with communities to help them plan and implement strategies 
        to increase mobility.

         EASTER SEALS PROJECT ACTION APPROPRIATIONS PRIORITIES

    Easter Seals urges Congress to support the mobility needs of people 
with disabilities and older adults (through the National Center on 
Senior Transportation) to address significant unmet needs, such as 
addressing the coming increase in the need for accessible 
transportation options as baby boomers age and integrating 
transportation technology advances to increase transportation mobility 
and access.

           ABOUT THE NATIONAL CENTER ON SENIOR TRANSPORTATION

    Older adults rely on public transportation to travel to work and to 
access services, supports and entertainment in their communities. 
Recognizing the need to improve access to public transportation for 
older adults, Congress authorized the National Center on Senior 
Transportation (NCST) in 2005 as part of the Safe, Accountable, 
Flexible, Efficient Transportation Equity Act: A Legacy for Users 
(SAFETEA-LU). Congress reauthorized the program in 2012 as part of the 
Moving Ahead for Progress in the 21st Century Act (MAP-21) in the 
standards development and technical assistance account.
    With funding from the U.S. Department of Transportation, Federal 
Transit Administration, NCST was launched in 2006 and has been 
administered by Easter Seals, Inc. in partnership with the National 
Association of Area Agencies on Aging (n4a) ever since. In April 2012, 
the Federal Transit Administration once again selected Easter Seals, 
Inc. and n4a to administer. From the Center's inception, a national 
steering committee of experts in senior transportation issues has 
advised NCST on issues in aging and transportation and ways to achieve 
NCST's goals.

  COLLABORATING WITH COMMUNITIES TO INCREASE INDEPENDENCE AND IMPROVE 
                                SERVICES

    The National Center on Senior Transportation's mission is to 
increase transportation options for older adults and enhance their 
ability to live more independently within their communities throughout 
the United States. NCST achieves this mission by gathering and sharing 
best practices; providing technical assistance and training; 
facilitating strategic partnerships and community engagement to support 
the development and coordination of senior transportation options; 
developing and disseminating information; and administering 
demonstration grants.
    The Center has a strong commitment to promoting innovations at the 
community level and has provided funding and technical assistance to 
support a number of specific projects across the United States. Working 
with individual communities, the NCST identifies effective and creative 
approaches for addressing the challenges that impact transportation 
services for older Americans. The NCST strives to bring together the 
aging, human service, and transportation providers to create solutions. 
Our work supports the full ``family'' of older adult transportation 
services, including programs using volunteers both to driver and to 
accompany older adults to their destinations, travel training and 
orientation promoting increased use of public transit, older driver 
safety, education for caregivers, coordinated planning efforts and much 
more.

   NATIONAL CENTER ON SENIOR TRANSPORTATION APPROPRIATIONS PRIORITIES

    Easter Seals urges Congress to support the mobility needs of older 
adults and people with disabilities (through Easter Seals Project 
ACTION) to address significant unmet needs, such as addressing the 
coming increase in need for accessible transportation options as baby 
boomers age and integrating transportation technology advances to 
increase transportation mobility and access.
                                 ______
                                 
        Prepared Statement of Habitat for Humanity International

    Thank you for the opportunity to provide testimony in support of 
the Self-Help and Assisted Homeownership Opportunity Program (SHAHOP) 
account, which funds the Self-Help Homeownership Opportunity Program 
(SHOP), the Section 4 Capacity Building for Community Development and 
Affordable Housing Program (Section 4), and the Department of Housing 
and Urban Development's (HUD's) rural capacity building program. 
Habitat for Humanity International (Habitat) urges the subcommittee to 
appropriate $60 million for the SHAHOP account for fiscal year 2014, 
funding SHOP at $20 million, Section 4 at $35 million, and rural 
capacity building at $5 million.

              SELF-HELP HOMEOWNERSHIP OPPORTUNITY PROGRAM

    HUD's SHOP program has been a uniquely effective tool for enabling 
successful low-income homeownership by providing resources to Habitat 
affiliates and other nonprofits implementing self-help housing models 
to acquire property, including foreclosed or abandoned homes, and to 
develop infrastructure for future Habitat homes, activities that are 
among the most difficult to underwrite through private fundraising. 
With many communities around the country still struggling to overcome 
the effects of the Great Recession and the foreclosure crisis, enabling 
families to become successful homeowners has never been more important 
to local economies. With the support of SHOP funds, Habitat affiliates 
have completed more than 15,000 homes and housed nearly 54,000 people 
and counting, while leveraging over $1 billion in private investment in 
neighborhoods and communities throughout the Nation.
    Since fiscal year 2011, SHOP funding has been cut by 50 percent to 
the current funding level of $13.5 million, drastically reducing the 
impact of one of the most effective Federal tools for enabling low-
income families to become homeowners. In spite of the program's proven 
effectiveness, the administration's fiscal year 2014 budget request 
proposes eliminating SHOP as a stand-alone program, guaranteeing $0 in 
future funding through a so-called HOME Investment Partnerships Program 
(HOME) ``set-aside'' of ``up to'' $10 million.
    Even if funding were ultimately provided through a HOME set-aside, 
it is unlikely that Habitat affiliates could access or administer such 
a program, as Habitat for Humanity International (HFHI) currently 
applies for and administers SHOP funding and supports critical 
monitoring and evaluation requirements on behalf of its affiliates. 
HFHI would be unable to continue serving in this role if it were 
required to apply separately to every participating jurisdiction for 
funding, and the vast majority of Habitat affiliates would be unable to 
add the necessary staff capacity to do so on their own behalf.
    Additionally, current administrative processes would become even 
more burdensome under the administration's legislative proposal, which 
would expand HUD's regulation of SHOP. This is in stark opposition to 
the clearly expressed statutory intent of Congress to constrain SHOP 
regulatory burdens, maximizing the local impact of the program. In 
light of the Office of Management and Budget's (OMB's) having rated 
SHOP as of the most effective programs at HUD, it makes little sense to 
reform or reauthorize it as a HOME set-aside. Under the program's 
current structure, SHOP grantees have completed more homes at a lower 
cost than HUD requires and have generated levels of private investment 
in local communities rarely achieved through HUD programs.
    In addition to maximizing the impact of scarce appropriations, 
SHOP's traditional structure also ensures quality by enabling grantees 
to select the best local nonprofit developers to implement funding. 
Ultimately the President's proposal would eviscerate SHOP, shifting 
limited funding from serving families to meeting regulations and 
undermining Habitat and other proven grantees' ability to ensure 
program quality. In light of current budgetary constraints, ongoing 
weakness in the housing market, and SHOP's long history of 
effectiveness and efficiency, Habitat urges the subcommittee to 
maintain SHOP's current structure and to restore funding to $20 million 
for fiscal year 2014.

                  SECTION 4 CAPACITY BUILDING PROGRAM

    Complementing SHOP is the Section 4 Capacity Building Program 
(Section 4), the sole HUD program designed specifically to enhance the 
capacity of local nonprofit community developers. Like SHOP, Section 4 
has endured significant cuts since fiscal year 2011, and the 
President's fiscal year 2014 budget request proposes reducing the 
funding level to $20 million, an additional 43 percent cut from the 
current level of $35 million. Such a reduction would inevitably result 
in the diminished ability of community development organizations to 
meet the critical needs of local communities still struggling to 
achieve economic recovery.
    Habitat uses Section 4 funding to provide training, technical 
assistance, and organizational development grants to local Habitat 
affiliates to assist them with building staff capacity and expertise, 
organizational skills, and technical systems required to maximize 
impact on local communities. Affiliates receiving Section 4 funds have 
increased their housing production levels by 48 percent during their 3 
year grant periods and have sustained or increased these gains in 
subsequent years. Habitat urges the subcommittee to maintain Section 4 
at $35 million for fiscal year 2014.
    Together, SHOP and Section 4 serve as impact multipliers for 
Habitat affiliates nationwide in both rural and urban communities. With 
local economies still suffering effects from the Great Recession, 
Congress should maintain proven programs like SHOP and Section 4 that 
leverage tens of millions of dollars of private investment into 
communities, enabling hundreds of additional qualified families to 
become Habitat homeowners each year.
    Please support Habitat's mission and work by funding SHAHOP at $60 
million in the fiscal year 2014 Transportation, Housing and Urban 
Development, and Related Agencies appropriations bill. Thank you for 
your consideration and for your support of Habitat for Humanity.
                                 ______
                                 
     Prepared Statement of HUD Council 222, American Federation of 
                     Government Employees, AFL-CIO

    Madam Chairman Murray, Ranking Member Collins, and members of the 
subcommittee, my name is Carolyn Federoff. I am the executive vice 
president of HUD Council 222, American Federation of Government 
Employees, AFL-CIO. On behalf of the 1,547 Federal employees who work 
in the Office of Multifamily Housing (MFH) of the U.S. Department of 
Housing and Urban Development, I want to thank you for the opportunity 
to submit our written statement for the hearing record on the important 
issue of the HUD proposal to reorganize the HUD Office of Multifamily 
Housing.

                                SUMMARY

    HUD's proposed reorganization of the Office of Multifamily Housing 
is irresponsible. It would be very costly to implement, would generate 
little or no savings, would not resolve the problems identified by HUD 
in its Federal Register notice (78 FR 25293), and would generate 
additional problems--many of which could increase risk to the Federal 
Housing Administration (FHA) Insurance Fund.
    The Office of Multifamily Housing employees have been remarkably 
successful. Between 2009 and 2012, Multifamily Housing increased its 
customer base from 48 lenders to 89 lenders, more than doubled the 
value of initial endorsements--from $5.1 billion to $13.1 billion, and 
nearly doubled the numbers of loans processed, from 661 to 1,286. The 
Office of Multifamily Housing can be made more effective and efficient. 
But we believe alternative, more responsible, proposals are faster, 
cheaper, and smarter.

                               DISCUSSION

Proposed Multifamily Housing Reorganization Would Be Very Costly To 
        Implement
    HUD is proposing to physically consolidate into 10 locations; 
employees and work currently located in 61 offices nationwide. The 
Agency projects a minimum cost of $57.3 million based on various one-
time costs, including:
  --Buyout cost--approximately $13.9 million-$20.8 million;
  --Personnel relocation cost--approximately $16.8 million-$33.6 
        million;
  --Net office closure costs--$6.1 million;
  --Space alteration costs in the 10 remaining offices--$20 million; 
        and
  --Training costs--$500,000.
    However, the Agency has failed to present other costs, including:
  --Minimum loss of 25 percent of skilled and experienced employees;
  --Unknown costs for recruiting and rehiring employees with necessary 
        skills to replace employees choosing not to relocate;
  --Unknown costs for training new employees;
  --Unassessed cost of severance pay for employees choosing not to 
        relocate or take a buyout;
  --Unknown cost to national and local economies due to lost 
        productively during relocation chaos;
  --Unknown cost to FHA insurance funds due to increased risk resulting 
        from relocation chaos; and
  --Unknown long-term cost to FHA insurance funds due to reduced 
        staffing and oversight.
    In addition, the Agency has presented no reoccurring costs. This is 
not supportable, however. Unless the Agency intends to eliminate all 
site visits or use contractors, the cost of travel will increase as 
Multifamily Housing field staff will be required to travel further 
distances. Further, there will be increased annual office costs in the 
10 remaining offices. Moreover, the per square foot cost for office 
space in the 10 remaining offices will be generally more expensive than 
the cost of current office space.

Proposed Multifamily Housing Reorganization Would Generate Little to No 
        Savings
    HUD projects long term savings of approximately $47 million 
annually: ``The savings is directly related to a reduction in salary 
and benefit costs due to reducing overall MFH staffing from 1,547 in 
fiscal year 2012 to 1,173 by the end of fiscal year 2016.'' These 
savings were calculated based upon an average cost per full-time 
employee (FTE), or approximately $125,000 per FTE.
    However, not all FTEs are the same. The cost of an FTE in New York 
City is more than the cost of an FTE in Des Moines, Iowa. Through 
collective bargaining, the Agency has provided us with a ``from-to'' 
list identifying the current duty stations of bargaining unit employees 
and the offices to which they will be reassigned. There are 617 
employees on this list. (The remaining approximately 173 employees to 
be reassigned are not in the AFGE Council 222 bargaining unit.) The 
employees are predominantly GS-12 and GS-13. For ease of calculation, 
we conservatively assumed that all affected employees are GS-12 Step 5. 
We then calculated the cost of their salaries in their current location 
versus in the location to which they will be reassigned. The result is 
an increase in salary costs of more than $2.1 million annually.
    Recognizing that the Agency intends to reduce costs by reducing 
FTEs, we recalculated. The Agency intends to relocate or buyout 790 
employees, with a net loss of 374 FTEs. Our calculations are based on 
617 FTEs, therefore accommodating 191 of the projected loss. The 
remaining 185 of the projected loss represents an additional 30 percent 
reduction in staff. Reducing our salary estimates by 30 percent results 
in a final estimate of almost $1.5 million in additional salary costs 
annually.
    We will be spending more to get less.

Proposed Multifamily Housing Reorganization Would Not Resolve the 
        Problems Identified by HUD but Alternative, More Responsible, 
        Methods Would and They Would Be Faster, Cheaper and Smarter
            ``Fragmented and Unwieldy Organizational Structure''/Need 
                    for ``Better Spans of Control''
    Many of the problems identified by HUD as the reasons for the 
reorganization are real. But the proposed consolidation into 10 offices 
does not resolve the problems identified. For example, the Federal 
Register Notice presents as a problem a ``fragmented and unwieldy 
organizational structure'' and states that Multifamily Housing needs 
``better spans of control and [to] establish clear reporting lines in 
the field.'' An organizational structure, however, is not the same as 
an office structure. Organization charts are not written in bricks and 
mortar. Similarly, spans of control and lines of authority are not 
resolved by the configuration of office space. Physically consolidating 
staff will not instantly eliminate fragmentation or an unwieldy 
organizational structure. Physically consolidating Multifamily Housing 
employees will not eliminate multiple layers of review or bottlenecks 
through which all decisions must flow.
    A cheaper, faster and smarter solution is to change the 
organizational reporting relationships and lines of authority. This can 
help resolve fragmentation and create a more ``wieldy'' or controllable 
organizational structure. It can be used to create better spans of 
control. If articulated well, it can establish clear reporting lines in 
the field and headquarters.
    We recommend that the Agency use HUD's established regional 
structure to consolidate hubs and tame unwieldy spans of control, 
assuring access to HUD's core programs (Multifamily Housing, public 
housing, community planning and development (CPD), and fair housing and 
equal opportunity (FHEO)) in offices across the country. To maintain 
customer service at reasonable cost, we recommend that remaining field 
offices be established as satellites. If workload does not support the 
designation of a field office as a satellite, existing Multifamily 
Housing employees can be ``out stationed'' from and report remotely to 
the hub.
            ``Antiquated Systems and Processes''/Need To ``Increase the 
                    Consistency of MFH Processing Across the Country''
    The Agency has identified as problems ``antiquated systems and 
processes'' and the need to ``increase the consistency of MFH 
processing across the country.'' Again, however, these are not problems 
that are necessarily resolved through relocation. Antiquated systems 
and processes are location neutral. ``Reducing the field footprint'' 
does not automatically result in more consistent customer service. It 
takes better systems and processes, and trained employees and managers 
to achieve consistent customer service.
    Cheaper, faster and smarter solutions are available. The Breaking 
Ground and Sustaining Our Investments initiatives directly address the 
processes our Development and Asset Management divisions use daily. The 
cost of their initial implementation has already been expended. In 2009 
and 2010, the Administration introduced Loan Committees that review 
applications for FHA mortgage insurance before the issuance of a firm 
commitment. This has increased the consistency of Multifamily Housing 
development processing.
            Need for ``More Active Workload Balancing''
    The Agency has identified a need for ``more active workload 
balancing.'' FHA Commissioner Carol Gallante testified before this 
subcommittee about wide disparities in the workload of employees from 
office to office. As union representatives, we are acutely aware of 
these inequities. We are also aware, however, that the Agency lacks a 
willingness to actively manage the workload. Physically consolidating 
Multifamily Housing employees in and of itself does not actively 
balance workloads. This takes active management.
    A cheaper, faster and smarter solution is available. The 
administration has recently started a workload sharing pilot program 
that is location neutral. If, as contemplated by this reorganization, 
work from Seattle, Washington, can be done in San Francisco, then the 
work from an overburdened asset manager in Portland, Oregon, can be 
done by an employee with a lighter portfolio in another office. The 
workload sharing pilot should be fully implemented.

Proposed Multifamily Housing Reorganization Would Generate Additional 
        Problems, Many of Which Could Increase Risk to the FHA 
        Insurance Fund
    Aside from failing to solve the problems identified, the proposed 
reorganization would create additional problems. Some of the problems 
created will be irreversible. Many will increase risk to the FHA 
Insurance Fund.
    For example, the Agency anticipates losing 395-592 Multifamily 
Housing employees in the field, currently estimated at 1,247. This 
would be a loss of 32 percent to 47 percent of Multifamily Housing 
employees engaged in direct customer service. The overwhelming majority 
of these losses will likely be employees with 20 or more years of 
experience and training. The Agency is unlikely to be able to replace 
lost skills in a timely fashion, except at great cost: in almost every 
instance, the location of the proposed hub or satellite is an area with 
below-average unemployment rates and financial centers competing for 
the same talent pool.
    We are particularly concerned that the proposed reorganization 
would permanently reduce by 30 percent Multifamily Housing employees in 
the field, despite the fact that reductions in staff are made before 
any process improvements are implemented or assessed for efficiency or 
effectiveness, and Government Accountability Office (GAO) reported in 
March that HUD lacks a credible method of determining its staffing 
needs. (``HUD--Strategic Human Capital and Workforce Planning Should be 
an Ongoing Priority,'' GAO March 2013)

Request for Government Accountability Office (GAO) Report
    We request that the Transportation, Housing and Urban Development, 
and Related Agencies appropriations subcommittee seek a GAO review of 
the process utilized by the Office of Multifamily Housing for 
determining its staffing needs after reorganization, and report on 
whether and how Multifamily Housing overcame the problems identified in 
the March 2013 GAO report.
    We further suggest that the subcommittee prohibit any expenditure 
of funds to implement the proposed reorganization until after Congress 
has an opportunity to review the new GAO report.
    This concludes my written statement. I thank you for including it 
in the hearing record.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives

  FISCAL YEAR 2014 FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION BUDGET 
                                REQUEST
           INTEREST OF THE INSTITUTE OF MAKERS OF EXPLOSIVES

    The Institute of Makers of Explosives (IME) is the safety and 
security association of the commercial explosives industry. Commercial 
explosives underpin the economy. They are essential to energy 
production, construction, demolition, and the manufacture of any metal/
mineral product. Explosives are transported and used in every State. 
The ability to transport and distribute these products safely and 
securely is critical to this industry. At some point, virtually all 
explosives are transported by truck. Among these explosives are 
products classed as Division 1.1, 1.2, 1.3, and 1.5 materials, which 
with other select hazardous materials, may only be transported by motor 
carriers holding a ``hazardous materials safety permit'' (HMSP) issued 
by the Federal Motor Carrier Safety Administration (FMCSA). According 
to program data, carriers of explosives make up the largest segment, 
roughly half, of the universe of HMSP holders.
    Our industry has maintained an exceptional safety record for 
decades. According to the Hazardous Materials Information System 
(HMIS), no deaths have been attributed to commercial explosives since 
the Department of Transportation began collecting data in the 1970s. 
Despite the safety record of our industry, we have members who struggle 
when it comes to maintaining their HMSP qualification.

                         IMPLEMENTATION ISSUES

    HMSP holders failed to appreciate the full impact of the 
disqualifying out-of-service (OOS) thresholds when FMCSA finalized the 
HMSP rule in 2004. First, the preamble and the regulatory text set 
forth in the 2003 proposal, as well as the preamble to the HMSP final 
rule, describes the agency's intent to issue HMSPs to motor carriers 
with a ``satisfactory'' safety rating.\1\ Those without a satisfactory 
safety rating would be eligible for a temporary HMSP if they have ``a 
crash rate in the top 30 percent of the national average, or a driver, 
vehicle, hazardous materials, or total [OOS] rate in the top 30 percent 
of the national average.'' (Emphasis added.) Second, the ``or total'' 
OOS rate suggested that the 30 percent national average 
disqualification would, in the aggregate, disqualify only 30 percent of 
carriers. As FMCSA has implemented this program, however, these were 
not the standards that a carrier could rely on to obtain a permit. 
Instead, all carriers must perform to the OOS standard, irrespective of 
their safety rating.
---------------------------------------------------------------------------
    \1\ 68 Federal Register (FR) 49737, 49752 and 49753 (August 19, 
2003); 69 FR 39367, 39352 (June 30, 2004).
---------------------------------------------------------------------------
    Since the HMSP program's inception in 2005, we have urged FMCSA, in 
meetings, letters, and petitions, to relook at this program and make 
needed reforms. Over these 8 years, the HMSP program has been plagued 
by administrative missteps including double counting OOS inspections 
and thousands of erroneous denials of applications. Last year, FMCSA 
provided ``interim'' relief by ``fixing'' the OOS disqualification 
rates. Prior to the ``fix,'' disqualification rates were recalculated 
every 2 years, thereby exposing carriers to the risk of losing their 
permits simply because they were being judged against a different 
universe of carriers at a particular point in time. Still, questions 
remain unanswered about the statistical basis used by FMCSA to 
calculate the program's most critical criterion, the hazardous material 
(hazmat) OOS rate. We have documented the inherent unfairness of a 
system that relies on OOS rates. Selection criteria for roadside 
inspections is not random (nor should it be given limited resources), 
which is to say that carriers do not have equal opportunity to amass 
``clean'' inspections. Not all OOS violations are crash-causal, and 
some are inherently biased by personal judgment. Further, the 
methodology used to determine ``significance'' of the inspection data 
lacks statistical confidence. We do not object to a public policy 
requiring that motor carriers transporting hazmats be held to higher 
safety standards. However, we do object to the bias and uncertainty 
that the current HMSP program breeds, especially when the program has 
shown no nexus to safety enhancement.

                  SAFETY BENEFITS OF THE HMSP UNPROVEN

    FMCSA estimated that implementing the HMSP program would prevent 
seven hazmat truck-related crashes per year. The agency stated that the 
safety benefits derived from the projected crash reductions would be 
``large because of the number of conventional crashes that may be 
prevented.'' This has not proved to be the case. The data generated 
after the 8 years of the HMSP and during the 8 years immediately 
preceding the implementation of the HMSP shows that HMSP holders are 
historically among the safest carriers on the road and that the program 
has had little impact on safety:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1997-2004                 2005-2012                    All hazmat highway incidents
                                                 -------------------------------------------------------------------------------------------------------
                  HMSP material                                                                               1998-2004                 2005-2011
                                                    Crashes     Fatalities    Crashes     Fatalities ---------------------------------------------------
                                                                                                        Crashes     Fatalities    Crashes     Fatalities
--------------------------------------------------------------------------------------------------------------------------------------------------------
Explosives (25 kg. 1.1, 1.2, 1.3, and placarded            36  ...........           29  ...........  ...........  ...........  ...........  ...........
 1.5)...........................................
RAM (HRCQ\1\)...................................           16  ...........           19  ...........  ...........  ...........  ...........  ...........
TIH.............................................           55  ...........           61        \2\ 1  ...........  ...........  ...........  ...........
Methane.........................................            4  ...........            3  ...........  ...........  ...........  ...........  ...........
      Total.....................................          111  ...........          112            1        2,461           85        2,448           81
--------------------------------------------------------------------------------------------------------------------------------------------------------
Data from the Hazardous Materials Information System (HMIS), 3/11/2013.
\1\ It may be that none of these crashes are highway route controlled quantities (HRCQ). From the data in HMIS, it was possible to eliminate some
  incidents that were clearly not HRCQ. Where there was doubt the incident was counted.
\2\Anhydrous ammonia (AA) intended for agricultural use.

    For HMSP holders, this safety record highlights the need for an 
immediate reconsideration of the disqualifying standards that are 
threatening their livelihoods. Keep in mind that the vast majority of 
carriers subject to the HMSP are not long-haul, freight-all-kinds 
carriers. They serve niche markets that rely on local, often rural 
delivery, and require specialized equipment. As such, these carriers do 
not frequent routes with inspection stations. Once these carriers get 
into trouble based on the non-random, often subjective OOS calls by 
inspectors, it is virtually impossible for these carriers to accrue 
sufficient ``good'' inspections to overcome the ``bad.'' For example, 
it is not uncommon for an HMSP holder to average 15 or fewer 
inspections in a year, but only inspection data from the 12 months 
prior to the expiration of the holder's permit is counted, and only 
holders with at least three inspections are considered ``statistically 
significant'' for purposes of the OOS disqualifications. If two of the 
inspections in this timeframe result in an OOS \2\, the carrier would 
need 28 ``clean'' inspections to requalify. The later into the 12-month 
qualification period that the second OOS occurs, the more unlikely it 
is that a carrier could recover. Consider that two similarly situated 
carriers each receive two OOS inspections, then one of the two obtains 
a third ``clean'' inspection. The carrier that received the clean 
inspection would lose its permit, the other would continue operating. 
Or consider that on any given day two similarly situated carriers could 
be ``underwater'' \3\ because of their current mix of OOS and clean 
inspections. However, because one carrier's HMSP expires that day, that 
carrier loses its permit, while the other continues to operate.
---------------------------------------------------------------------------
    \2\ This assumes that the OOS citation was correctly issued. CSA 
experience shows that FMCSA's ``Data Q'' process is overwhelmed and 
State ability and/or willingness to expend resources on these 
challenges is a growing concern.
    \3\ Below the OOS disqualification threshold.
---------------------------------------------------------------------------
    These specialized carriers do not have the option to carry non-HMSP 
freight while working to requalify for a permit. The irony is that, 
when these carriers get into jeopardy, FMCSA does not routinely suspend 
or revoke the HMSP; rather carriers are allowed to operate until it is 
time to apply for renewal. The regulations allow for appeals when 
permits are suspended or revoked, but not if the carrier is applying 
for renewal. Under no circumstance may holders apply for a waiver of 
the OOS disqualification irrespective of their overall operational 
safety records.

                      REQUEST FOR EXPEDITED RELIEF

    FMCSA accepted a petition for rulemaking from IME and other 
affected industry associations to reform the HMSP disqualification 
standards. While we are pleased that FMCSA has accepted our petition, 
we are disappointed that ``the agency has determined that this 
rulemaking should not be initiated until the CSA Safety Fitness 
Determination (SFD) final rule is published, as it will be used as the 
basis for initiating this rule.'' \4\ We would like to strongly suggest 
that the HMSP reform should take precedence over finalization of the 
SFD rulemaking, a rulemaking that has yet to be proposed. First, the 
HMSP program is being used now as the SFD standard for covered 
materials. Covered carriers that do not meet the contested HMSP 
standards may be shutdown. Non-HMSP carriers do not yet face this 
outcome. Second, the problematic HMSP disqualification standards are 
based on inspections and OOS determinations. These same metrics are 
expected to be the basis of the standards to be proposed in the SFD 
rulemaking. Third, the HMSP regulated community is very small relative 
to the universe of carriers that will be subject to the SFD. For these 
reasons, we believe FMCSA should immediately act to fix the HMSP 
disqualification standards and export that refined SDF model to the 
larger commercial trucking universe under CSA.
---------------------------------------------------------------------------
    \4\ Letter to IME from FMCSA, November 14, 2011, page 1. (Emphasis 
added.)
---------------------------------------------------------------------------
    The agency's reluctance to immediately address the shortcomings of 
the HMSP is particularly troubling because implicit in FMCSA's plan to 
address by rulemaking many of the issues raised by industry is an 
acknowledgment of deficiencies with the current program. These 
deficiencies will persist over the intervening years between now and 
the time that they are resolved through the promised HMSP rulemaking. 
Meanwhile, the controversy over the evolving SFD standards adds to the 
uncertainty and almost certainly means that it will be years until this 
``precursor'' rule is finalized. The continuing adverse impacts to the 
HMSP community are undeserved.
    While Congress tried to spur agency action by requiring that the 
agency consult with stakeholders and initiate rulemaking,\5\ we are 
concerned that the agency will not move fast enough to prevent 
relatively good carriers from losing their HMSP and, as explained, 
being put out of business based on limited data anomalies. Safety is 
not enhanced when new and inexperienced carriers with no OOS history 
fill the void. We have asked FMCSA to immediately address these 
pressing concerns by issuing an interim final rule (IFR) to at least 
provide for an additional level of fitness review (ALFR) prior to the 
denial, revocation, or suspension of a safety permit until such time 
that the agency proceeds with the full rulemaking based on our 
petition. The ALFR would consider the safety management controls of the 
applicant or holder not just OOS violations rates, and it would provide 
the applicant or holder an opportunity to file a corrective action plan 
to address identified concerns.\6\ An ALFR would not overly burden the 
agency, as it would involve an examination of less than 100 HMSP 
holders annually. Further, this approach is consistent with the 
direction the agency is pursuing under the CSA initiative to focus 
compliance oversight on carriers needing the most improvement compared 
to their peers.
---------------------------------------------------------------------------
    \5\ ``MAP-21'' (Public Law 112-141), section 33014.
    \6\ This opportunity should not be available to applicants or 
holders that present an imminent hazard or evidence of a pattern 
willful and knowing non-compliance with safety regulations.
---------------------------------------------------------------------------
    FMCSA told us in January that the agency was not willing to pursue 
a regulatory option as we have described because of resource 
limitations. Justice will not be served by inattention to these 
pressing concerns. The uncertainty of when FMCSA will be able to carry 
out the HMSP rulemaking coupled with the urgency for some action based 
on acknowledged program deficiencies compel us to ask the subcommittee 
to deny funds to administer this program until FMCSA provides interim 
measures to ensure that HMSP holders are not denied permits based 
solely on the flawed disqualification standards in place now.

                               CONCLUSION

    Congress envisioned a risk-based safety program for hazmat 
carriers. It gave FMCSA wide latitude to name the types and quantities 
of hazardous materials that should be covered by a HMSP. But, the 
agency has chosen to apply this authority only to the narrow list of 
statutorily mandated materials. History shows that carriers of these 
materials are not presenting the crash risk that the agency claims the 
HMSP will address. Neither IME nor its members object to public policy 
that holds hazmat carriers to a higher safety standard, which is the 
premise for the HMSP. We do object, however, to the current standards 
for disqualification. They are not risk-based and deny holders 
meaningful due process protection. Inspection frequency and outcome do 
not seem to correlate to crashes or fatalities. Thank you for your 
attention to these concerns.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives

FISCAL YEAR 2014 PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION 
      BUDGET REQUEST FOR THE OFFICE OF HAZARDOUS MATERIALS SAFETY
           INTEREST OF THE INSTITUTE OF MAKERS OF EXPLOSIVES

    The IME is the safety and security association of the commercial 
explosives industry. Commercial explosives underpin the economy. They 
are essential to energy production, construction, demolition, and the 
manufacture of any metal/mineral product. Explosives are transported 
and used in every State. Additionally, our products are distributed 
worldwide, while some explosives must be imported because they are not 
manufactured in the United States. The ability to transport and 
distribute these products and to receive precursor chemicals safely and 
securely is critical to this industry.

                               BACKGROUND

    The production and distribution of hazardous materials is a 
trillion-dollar industry that employs millions of Americans. These 
materials contribute to America's quality of life, but if handled 
improperly, adverse consequences can result. The threat of intentional 
misuse of these materials also factors into public concern. To protect 
against these outcomes, the Secretary of Transportation (Secretary) is 
charged under the Hazardous Materials Transportation Act (HMTA) to 
``provide adequate protection'' against these risks through regulation 
and enforcement.\1\ The Secretary has delegated the HMTA authorities to 
various modal administrations, with primary regulatory authority 
resting in the Pipeline and Hazardous Materials Safety Administration 
(PHMSA).
---------------------------------------------------------------------------
    \1\ 49 U.S.C. Chapter 51.
---------------------------------------------------------------------------
    PHMSA regulates hazmat transportation so closely that such 
materials may not be moved any distance, via any mode of transportation 
unless a DOT regulation, permit or approval authorizes the movement. 
Such close regulation makes efficient consideration of such 
authorizations critical to the industries and workers involved, as well 
as to the national defense, the security of our homeland, and the 
economy at large.

                           BUDGET UNCERTAINTY

    In the absence of the Administration's fiscal year 2014 budget 
request, we are in uncharted territory in terms of our analysis of the 
President's budgetary priorities.\2\ As of the date of this comment, 
Congress has provided a fiscal year 2013 appropriation to PHMSA equal 
to its fiscal year 2012 rate for operations, less the 0.612 percent 
increase provided by Public Law 112-175. Under this scenario, PHMSA is 
looking at $42.3 million for its hazmat program in fiscal year 2013. 
This funding rate is consistent with the amount authorized for fiscal 
year 2013 by MAP-21.\3\ As we look forward to fiscal year 2014, MAP-21 
provides a $42.8 million authorization for PHMSA's hazmat programs. 
However, the Government's budget situation does not improve. The 
agency's fiscal year 2013 appropriations is still subject to a 5-
percent decrease under a sequestration order if the President fails to 
reach agreement with Congress on an alternative, and we understand that 
the cap on non-emergency appropriations for fiscal year 2014 will drop 
to $966 billion, down from the cap of $984 billion in fiscal year 2013.
---------------------------------------------------------------------------
    \2\ The Budget Act requires that submission of the President's 
budget request by the first Monday in February. The current expectation 
is that the President's fiscal year 2014 request will be released in 
April.
    \3\ Public Law 112-141.
---------------------------------------------------------------------------
    While there is uncertainty about the specifics of the 
administration's hazmat priorities for fiscal year 2014, it should be a 
given that additional program growth is unlikely in the near future, 
and certainly for the coming fiscal year.\4\ Rather, we should be 
focusing the realignment of program priorities to ensure that the 
agency's core mission is sustained. With this perspective, we offer the 
following comments.
---------------------------------------------------------------------------
    \4\ PHMSA's hazmat budget has increased by about $10 million, a 30-
percent rate of growth, in the last 3 fiscal years.
---------------------------------------------------------------------------
          PHMSA'S FISCAL YEAR 2013 ``USER FEE'' BUDGET REQUEST

    In these tight budgetary times, PHMSA may be tempted to repropose a 
``user fee'' on certain agency activities as it did last fiscal year. 
We commend both the authorizing and appropriating committees of 
Congress for rejecting this request last year, and urge similar 
restraint, if user fees are again proposed.

  PHMSA'S HAZMAT PROGRAM IS A SUCCESS: RULEMAKING AND DATA COLLECTION 
                               PRIORITIES

    As noted above, the HMTA requires that PHMSA's regulations be risk-
based. The agency, in turn, measures the success of its hazmat safety 
program by the number of transportation-related deaths and ``serious 
injuries'' (i.e., hospitalizations) attributed to the hazardous 
materials. The agency acknowledges that these numbers ``have declined 
an average of 4 percent every 3 years over the long term.'' \5\ This 
decline continued last year. Only 10 deaths, all due to human error, 
not a failure of a regulatory standard, were attributed to hazardous 
materials. None, since the early 1970s, have been attributed to 
commercial explosives. This contrasts with thousands of deaths annually 
that result from crashes involving large trucks, for example.
---------------------------------------------------------------------------
    \5\ Fiscal year 2013 PHMSA Budget Justification, page 3.
---------------------------------------------------------------------------
    This safety outcome suggests that PHMSA needs to focus on two core 
missions: rulemaking, including the timely issuance of approvals and 
permits, to keep commerce moving, and data collection and public access 
to the data. For example, we were very concerned that no new resources 
above baseline were requested last year to support rulemaking activity. 
MAP-21 makes clear that rulemaking, including accelerating the 
incorporation of special permits into the HMR, is a priority. PHMSA 
needs to maintain resources to remain active in international standard-
setting forums to ensure that U.S. rules are consistent to keep 
American goods moving in the global marketplace. PHMSA's ability to 
collect incident data is critical to stakeholder's ability to 
understand and learn from incidents. Additionally, the agency's efforts 
to enhance the online availability of incident data, rulemakings, and 
the timeliness of processing applications for special permits and 
approvals should be commended and encouraged. Finally, we welcome the 
agency's efforts to improve communication and outreach with the 
regulated community.

                      BUDGETARY ISSUES TO CONSIDER

    Staffing and Workload.--The biggest expense in PHMSA's budget is 
manpower. The agency's output is the work product of its employees. 
Yet, PHMSA's budget requests have not provided baseline empirical 
workload metrics to judge agency performance or the merit of staffing 
requests. When information about program output is provided, it is 
prospective, not retrospective. Of additional concern, retirements and 
departures of seasoned staff have led to a loss of institutional 
knowledge. While there is a need for qualified chemists, engineers, and 
economists to fill this void, it appears that the agency is using scare 
resources to build a ``senior advisor'' cadre for agency 
administrators.\6\ According to the Office of Personnel Management's 
2012 Federal Employee Viewpoint Survey Results Hazmat, PHMSA ranked 
near the bottom of all government agencies, and the lowest of all DOT's 
safety administrations. Such results to not bode well for attracting 
and retaining the kind of expert staff that are needed to keep up with 
the agency's rulemaking and analytical needs.
---------------------------------------------------------------------------
    \6\ https://www.usajobs.gov/GetJob/ViewDetails/339410400 and 
https://www.usajobs.gov/GetJob/ViewDetails/339410600 (March 15, 2013). 
These positions are in addition to other front office staffing added 
during the agency's 2010 reorganization. Approximately 25 percent of 
staff are now senior level grades (GS-14, GS-15, and SES); yet, few are 
for professional series positions. Despite the new positions, hazmat 
safety has not seen statistically significant improvement.
---------------------------------------------------------------------------
    Research and Development.--Congress provides 3-year monies to 
support a hazmat research and development (R&D) function within PHMSA, 
with a mission to study and evaluate emerging hazardous materials 
safety issues and technologies. So far, no fiscal year 2011, 2012, or 
2013 funds have been obligated. It does appear that PHMSA may be using 
some of these funds to create a Risk Management Framework (RMF).\7\ The 
RMF is supposed to establish incident probabilities through a set of 
fault and event trees of various hazmat shipping scenarios. The need to 
use scarce funds for such a framework is questionable given that four 
times as many deaths in the United States are caused by lightning 
strikes than hazmat incidents. There is concern that the RMF may lead 
to unnecessary over-regulation of hazmat that would threaten U.S. jobs 
while attaining no measurable safety benefit. At the same time, there 
is a pressing need to develop uniform performance standards for 
training hazardous materials inspectors. Congress agrees and directed 
PHMSA to produce these standards by April 2014. This initiative is 
deserving of support.
---------------------------------------------------------------------------
    \7\ In fiscal year 2010, $447, 000 was awarded to BayFirst, LLC for 
this purpose, about 30 percent of the year's R&D budget, and there is a 
placeholder for BayFirst to receive additional fiscal year 2011 funds.
---------------------------------------------------------------------------
    Grants Programs (GP).--PHMSA operates three GPs--HMEP, HMIT, and 
SPST--funded by fees assessed on the hazardous materials community. We 
have long looked for evidence of program accomplishment and question 
the agency's claims about achievements ascribed to these programs. In 
2005, Congress directed the agency to annually provide a detailed 
accounting of all grant expenditures.\8\ In the intervening 7 years, 
the agency has released only one such report, and that report did not 
provide the retrospective accounting necessary to determine if grant 
recipients were using funds appropriately.\9\ This year, PHMSA proposed 
that Congress eliminate this report saying that staff time used to 
prepare this report outweighs its benefit.\10\ The lack of GP 
transparency and accountability prompted an audit by the Office of 
Inspector General last year. The audit found systemic mismanagement and 
misuse of grant funds.\11\ PHMSA has still not made its fiscal year 
2012 grant awards to applicants under the HMIT and SPST programs. We 
believe the funds for the SPST program are forfeit because this program 
is not protected by the HMTA provision that funds remain available 
``without further appropriation.'' \12\ Whether or not PHMSA can 
release these fiscal year 2012 funds, grantees now have 6 months or 
less, rather than a year, to spend the funds, which does not bode well 
for effective use of these monies. These programs warrant increased 
oversight by the subcommittee.
---------------------------------------------------------------------------
    \8\ 49 U.S.C. 5116(k).
    \9\ http://phmsa.dot.gov/staticfiles/PHMSA/DownloadableFiles/Files/
Report_to_Congress_
HMEP_Grants_Program_2005_2006.pdf
    \10\ The Government Performance and Results Act (GPRA) 
Modernization Act of 2010 invites Federal agencies to identify for 
elimination or consolidation. http://www.performance.gov/sites/default/
files/tmp/_List_of_Reports_Required_by_P_L%20_111-352.xls.
    \11\ OIG, DOT, AV-2012-040, January 12, 2012.
    \12\ 49 U.S.C. 5116(i).
---------------------------------------------------------------------------
                               CONCLUSION

    The subcommittee needs to make difficult decisions about where to 
save scarce Federal resources. We recommend that the subcommittee 
review new front office staff allocations, and ensure that the agency 
has a plan to replace lost expertise in its rank and file. Additional 
oversight of PHMSA's hazmat R&D and grants programs also is warranted. 
PHMSA should redirect resources to enhance its information technology 
and rulemaking capacities. These services are needed by the hazmat 
community, given PHMSA's close regulatory scheme, to enable the safe, 
secure, and efficient movement of hazardous materials critical to the 
economy.
                                 ______
                                 
 Letter From Interested Parties for Hazardous Materials Transportation
                                                    April 26, 2013.
Hon. Patty Murray,
Chairman, Subcommittee on Transportation, Housing and Urban 
        Development, and Related Agencies,
Washington, DC.
Hon. Susan Collins,
Ranking Member, Subcommittee on Transportation, Housing and Urban 
        Development, and Related Agencies,
Washington, DC.

RE: Fiscal Year 2014 PHMSA Budget Request
    Dear Chairman Murray and Ranking Member Collins: The undersigned 
industry associations represent all sectors of the economy engaged in 
the transportation of hazardous materials which are essential to 
Americans' quality of life. We are writing to alert you to our concerns 
with the administration's proposed $12 million user fees to be paid by 
applicants for special permits and approvals (SP/A) issued by the 
Pipeline and Hazardous Materials Safety Administration (PHMSA). This 
fee proposal, with charges ranging from $700 to $3,000 per application, 
is identical to the user fee the administration proposed in fiscal year 
2013. Congress wisely rejected this proposal last year, and we urge you 
to once again reject this initiative in order to protect American jobs 
and promote innovation.
    PHMSA states that it needs the user fees to support its oversight 
of the new conditions it has imposed on SP/A applicants. However, the 
user fee proposal is without merit:
  --Currently, about 35 full-time equivalents (FTEs) are dedicated to 
        the SP/A program. $12 million would support a staff of 66 FTEs. 
        PHMSA has inflated the costs of this program by about 50 
        percent.
  --The SP/A workload is decreasing. For example, applicants for 
        classification approvals are no longer scrutinized for 
        ``fitness'' and special permits in effect over 10 years are 
        being incorporated into the Hazardous Materials Regulations 
        (HMR).
  --The excess user fee revenue would be used to underwrite the 
        agency's general fund, although only a fraction of the 
        regulated community are holders of special permits and 
        approvals.
  --No death has been attributed to special permits or approvals since 
        1971 when agency records began to be kept.\1\
---------------------------------------------------------------------------
    \1\ PHMSA claims that a maritime incident in 2008 which resulted in 
three deaths was caused by the violation of a special permit. However, 
the deaths were not the proximate result of a special permit violation. 
Testimony in the resultant litigation showed the deaths were due to 
negligence of a number of parties involved in the shipment.
---------------------------------------------------------------------------
  --The Government, not private companies, is the largest holder of 
        approvals and special permits. The Government will pay no fees.
  --Historically, fees have not been imposed on foreign entities for 
        fear of retaliatory fees on U.S. exports giving foreign 
        shippers a competitive advantage in the United States.
  --Part of the revenue will have to be used to hire additional Federal 
        workers to administer and collect the fees.
  --It is the business activity, not the size, of a company that 
        determines how many applications may be filed. Many payers will 
        be small businesses.
  --Despite statements that PHMSA is accelerating incorporation of 
        special permits into the HMR, no new resources are requested to 
        support this rulemaking activity.
  --The fees would be payable per application, meaning that any 
        application returned for corrections and re-filing would result 
        in unfair redundant fee payments.
  --Other Department of Transportation (DOT) modal administrations 
        issue approvals or what amount to special permits; none assess 
        fees.
    This program, which provides safety benefits to the public and 
facilitates technical innovations important to our economy, has been 
successfully run for decades without user fees. PHMSA's proposal could 
be the start of a trend for user fees for other regulatory actions 
including letters of interpretation or petitions for rulemaking 
necessary for compliance and good government.
    PHMSA'S user fees are not fair or equitable but are a hidden tax on 
companies that innovate and produce goods needed to strengthen and 
rebuild the U.S. economy. Congress should again reject this initiative.
            Respectfully,

Agricultural Retailers Association
American Chemistry Council
American Coatings Association
American Petroleum Institute
American Pyrotechnics Association
American Trucking Associations
Association of Hazmat Shippers, Inc.
The Chlorine Institute, Inc.
Compressed Gas Association
Council on Safe Transportation of Hazardous Articles
Dangerous Goods Advisory Council
The Fertilizer Institute
Gases and Welding Distributors Association
Industrial Packaging Alliance of North America
Institute of Makers of Explosives
International Vessel Operators Dangerous Goods Association, Inc.
National Association of Chemical Distributors
National Association of Shell Marketers
The National Industrial Transportation League
National Private Truck Council
National Propane Gas Association
National Tank Truck Carriers, Inc.
New England Fuel Institute
Petroleum Marketers Association of America
Radiopharmaceutical Shippers & Carriers Conference
Railway Supply Institute, Inc.
PRBA--The Rechargeable Battery Association
Reusable Industrial Packaging Association
Sporting Arms & Ammunition Manufacturers' Institute
Steel Shipping Container Institute
Transportation Intermediaries Association
Truckload Carriers Association
Utility Solid Waste Activities Group
                                 ______
                                 
            Prepared Statement of Representative Rick Larsen

    Thank you for the opportunity to submit testimony to the Senate 
transportation appropriations subcommittee on the need for investment 
in our country's infrastructure. Chairman Murray has been a leader on 
this issue for many years, and I appreciate her continuing focus on 
this issue.
    The recent collapse of the I-5 bridge across the Skagit River 
offers an example of the worst case scenario when we fail to adequately 
invest in infrastructure. I am hopeful that Congress will learn from 
this near-tragic incident.
    A couple weeks ago, Dan and Sally Sligh packed up their camper and 
headed out on Interstate 5 on the way to their favorite campsite in 
northwest Washington State. While crossing a bridge over the Skagit 
River they had safely crossed many times before, a large truck ahead of 
them clipped the frame of the bridge above.
    Without warning, and without time to react, the pavement under 
Dan's pickup fell from under them. Next, Dan said, ``It was just a 
white flash and cold water.'' Like thousands of constituents, I myself 
have driven across that bridge hundreds of times. But today no cars are 
crossing it.
    Recovery workers have been working hard pulling pieces of that 
bridge, along with Dan's pickup, from the flowing waters of the Skagit 
River, and quickly building a replacement span. The fact that no one 
died in this collapse is a blessing. But not all have been so lucky. 
I'm sure the subcommittee will recall the 2007 bridge collapse in 
Minneapolis that killed 13 people and injured another 145.
    I would ask the subcommittee to consider a simple question: should 
Americans be able to drive across a highway bridge with the reasonable 
expectation that it will not crumble away from underneath them?
    While the National Transportation Safety Board is continuing its 
investigation into all the facts of the bridge collapse, what we 
already know about our aging infrastructure should be enough to make 
this Congress act.
    Sixty-seven thousand bridges in our country are rated structurally 
deficient. When those bridges fall, it isn't just the unlucky few on 
those bridges who suffer. Whole economies that rely on safe and 
efficient transportation suffer.
    The I-5 bridge over the Skagit River doesn't just connect 
Burlington and Mount Vernon. It connects the entire West Coast and 
carries millions of dollars' worth of trade between Canada and the 
United States. Today that trade is in stop-and-go traffic on local 
roads.
    The good news is that we know how to build safe bridges. Thousands 
of civil engineers devote their lives to building good structures that 
don't fall down. But we need to pay for them. We need to maintain our 
bridges until they are old, and then we need to replace them. We can't 
keep waiting until they crumble into the water below.
    But if we're really going to do something about our long-term 
transportation needs, Congress needs to get to work on a long-term 
transportation bill that doesn't just patch our aging roads, but 
invests in an infrastructure that meets the needs of America's 21st 
century economy.
    It's time to put our money where our safety is. I look forward to 
working with you to make sure that we do so.
                                 ______
                                 
   Prepared Statement of the National Affordable Housing Management 
                              Association

    Thank you, Chairman Murray and Ranking Member Collins for the 
opportunity to submit this testimony on behalf of the National 
Affordable Housing Management Association (NAHMA). My testimony will 
focus on the importance of providing full funding for the 12-month 
contract terms under project-based section 8 and other key Department 
of Housing and Urban Development (HUD) rental assistance programs.

                              ABOUT NAHMA

    NAHMA members manage and provide quality affordable housing to more 
than 2 million Americans with very low to moderate incomes. Presidents 
and executives of property management companies, owners of affordable 
rental housing, public agencies and national organizations involved in 
affordable housing, and providers of supplies and services to the 
affordable housing industry make up the membership of NAHMA. In 
addition, NAHMA serves as the national voice in Washington for 19 
regional, State, and local affordable housing management associations 
(AHMAs) nationwide.

                        PROJECT-BASED SECTION 8

    In the project-based section 8 program (PBS8), HUD contracts with 
private apartment owners to pay the difference between the rent for the 
unit and 30 percent of a qualified tenant's income. The rental subsidy 
in the PBS8 program is tied to the property.
    This program provides housing to 1.2 million low-income households, 
over half of which are elderly or disabled. According to HUD, the 
program supports 100,000 jobs, and PBS8 properties generate $460 
million in tax receipts to local and State governments.
    It is essential for Congress to provide HUD with the necessary 
appropriations to make full and timely contract payments to property 
owners. When HUD does not have sufficient appropriations to obligate 
funding for the entire 12-month contract terms at the time of the 
renewals, it ``short-funds'' the contracts. Prior to 2009, HUD ``short-
funded'' its PBS8 contracts with owners so that payments would only be 
promised from the date of renewal through September 30 (the end of the 
Federal fiscal year). In other words, on a 12-month contract with a 
January 1 renewal date, HUD would only obligate funding through 
September 30. Funding for the remaining 3 months on the contract would 
have to be re-processed in the new fiscal year. This practice was 
disruptive to properties' operations, wasted HUD's staff time, and 
undermined public confidence in the project-based section 8 program. 
Unfortunately, HUD will resume this practice, at least temporarily, to 
manage the cuts required under sequestration.
    The President's budget proposal for fiscal year 2014 requests 
approximately $10.3 billion for the project-based section 8 program. 
Unfortunately, the fiscal year 2014 request is impacted by the $1.2 
billion shortfall in the program due to sequester funding levels in the 
fiscal year 2013 continuing resolution. As a result, HUD will not be 
able to fund contracts for the full 12-month terms during the remainder 
of fiscal year 2013 and into fiscal year 2014. If sequestration were 
repealed, the budget request would be sufficient to fully fund contract 
renewals; however, a repeal of sequestration seems increasingly 
unlikely. Therefore, an estimated $11.5 billion will be necessary to 
fully fund the fiscal year 2014 contract renewals and to close the 
shortfall caused in the fiscal year 2013 appropriations.
    In fiscal year 2014, NAHMA strongly urges the subcommittee to 
provide $11.5 billion for full funding of the 12-month contract terms 
of project-based section 8 contracts. This level of funding is 
necessary because:
  --The Federal Government must honor its contracts with property 
        owners.
  --Short-funding jeopardizes the efficient management, financial 
        solvency, and physical health of PBS8 properties.
  --Federal Housing Administration (FHA)-insured properties could 
        default without the contract funds to pay their mortgages.
  --Properties accumulate numerous late fees to lenders and service 
        providers as a result of having insufficient funds to make 
        mortgage and utility bill payments.
  --Property staff suffer lay-offs as a result of insufficient contract 
        funding.
  --Rehabilitation and renovation plans are put on hold when funding is 
        erratic.
  --Short-funding is a budget gimmick that does not save the Government 
        money.
  --Appropriations for 11,000 contracts that will be underfunded in 
        fiscal year 2013 due to sequestration will have to be provided 
        in fiscal year 2014--in addition to the funds necessary for 
        fiscal year 2014 contract renewals.
  --Short-funding wastes administrative time at HUD because staff must 
        process funding multiple times for the same property over the 
        course of the year.
  --Short-funding jeopardizes investor and owner confidence in the PBS8 
        program.

            OTHER CRITICAL HUD MULTIFAMILY HOUSING PROGRAMS

    NAHMA strongly urges the subcommittee to prevent draconian cuts to 
affordable multifamily housing programs administered by the Department 
of Housing and Urban Development (HUD). In fiscal year 2014, NAHMA 
strongly urges that the subcommittee provide the necessary 
appropriations to ensure that all of HUD's rental assistance programs 
receive full funding for their 12-month contract terms in fiscal year 
2014, and that no shortfalls result from the sequester funding levels 
in the fiscal year 2013 continuing resolution.
    In addition to project-based section 8, NAHMA is concerned about 
funding levels for the following programs:
  --NAHMA urges the subcommittee to provide the $20 billion requested 
        by HUD for the Housing Choice Voucher (HCV, or tenant-based 
        section 8) program plus any additional funding necessary to 
        ensure there are no program or contract shortfalls due to the 
        fiscal year 2013 sequestration.
  --For Section 202 Housing for the Elderly, NAHMA requests at least 
        $400 million plus any additional funding necessary to ensure 
        there are no contract shortfalls due to the fiscal year 2013 
        sequestration. HUD's request for this program also includes 
        $310 million for the renewal and amendments of Project Rental 
        Assistance Contracts (PRACs) and $70 million for the service 
        coordinator program. NAHMA also requests at least $20 million 
        for new construction of apartments to serve the elderly.
  --For Section 811 Housing for the Disabled, NAHMA requests at least 
        $126 million plus any additional funding necessary to ensure 
        there are no contract shortfalls due to the fiscal year 2013 
        sequestration. HUD's request includes $106 million for section 
        811 PRACs. NAHMA also requests at least $20 million for new 
        construction of apartments to serve disabled persons.
  --The General and Special Risk Insurance Fund programs provide 
        mortgage insurance for financing the development or 
        rehabilitation of multifamily housing, nursing homes and 
        hospitals. NAHMA supports HUD's request of $30 billion in 
        commitment authority.
  --The HOME Investment Partnerships (HOME) program is the largest 
        Federal block grant to State and local governments designed 
        exclusively to produce affordable housing for low-income 
        families. NAHMA requests funding at a level as close to $1.6 
        billion as possible.
  --The Community Development Block Grant (CDBG) offers block grants to 
        local communities for community development purposes, including 
        the development of affordable housing. NAHMA urges the 
        subcommittee to provide $3.3 billion for the CDBG.
    --Both HOME and CDBG provide essential gap financing for 
            development of Low Income Housing Tax Credit (LIHTC) 
            properties.

 PASSING COMPREHENSIVE, PRAGMATIC RENTAL ASSISTANCE REFORM LEGISLATION

    NAHMA joins a broad coalition of private housing providers, public 
housing agencies, low-income housing advocates and other stakeholders 
in urging Congress to pass comprehensive rental assistance and section 
8 Housing Choice Voucher (HCV) reform legislation in 2013. The most 
recent proposal was the Affordable Housing and Self-Sufficiency 
Improvement Act (AHSSIA) developed by the House Financial Services 
Committee in 2012. Savings and efficiencies achieved through these 
reforms would help stretch limited funds and minimize the risk of harsh 
cuts in assistance to needy families. If these reforms are enacted, it 
is essential to ensure the savings achieved are used to continue 
funding affordable multifamily housing programs. NAHMA strongly 
supports measures which would:
  --Streamline inspections of HCV housing units by permitting owners to 
        make minor repairs within 30 days and permitting public housing 
        authorities to allow occupancy prior to the inspection in 
        buildings which passed an alternative inspection (HOME, LIHTC 
        or other inspections with equally stringent standards) within 
        the last 12 months. These changes will help voucher-holders in 
        tight rental markets with low vacancy.
  --Expand income targeting for the public housing, HCV and project-
        based section 8 programs. These changes will help house more 
        working poor families, particularly in rural areas.
  --Simplify the rules for determining a family's rent and income, for 
        example, by allowing families on fixed incomes to recertify 
        their incomes once every 3 years instead of annually. This will 
        reduce the administrative burdens on tenants, property owners, 
        and management agents.
  --Stabilize HCV funding by basing it on the previous year's leasing 
        and cost data.
  --Encourage self-sufficiency for residents.
  --Streamline the use of HCVs with other Federal housing programs, 
        like the LIHTC, by extending the permitted contract period for 
        project-based vouchers from 15 to 20 years.
  --Authorize HUD's Rental Assistance Demonstration (RAD) program. RAD 
        is intended to test strategies to leverage private funds for 
        public housing capital needs, preserve units assisted through 
        the section 8 Moderate Rehabilitation program and allow 
        properties assisted under the Rental Assistance Payment (RAP) 
        and Rent Supplement (Rent Supp) programs to convert to project-
        based section 8 contracts.
  --Authorize HUD to provide Limited English Proficiency (LEP) 
        technical assistance to recipients of Federal funds. This 
        program would create a stakeholder working group to identify 
        vital documents for translations, require HUD to translate 
        identified documents within 6 months and create a HUD-
        administered 1-800 hotline to assist with oral interpretation 
        needs. This program is necessary because it will offer a 
        higher-level of quality control over the services provided to 
        LEP persons and ensure meaningful access to HUD's housing 
        programs for persons with LEP. It will also relieve housing 
        operators of an unfunded obligation to provide language 
        services that could divert funds from repairs and maintenance 
        of the properties.

                               CONCLUSION

    Thank you again for the opportunity to submit this testimony. I 
look forward to working with the subcommittee to ensure essential HUD 
rental assistance programs are fully funded and properly administered.
                                 ______
                                 
       Prepared Statement of the National AIDS Housing Coalition

    The National AIDS Housing Coalition (NAHC) is a national housing 
policy and advocacy organization working to end the HIV/AIDS epidemic 
by ensuring that persons living with HIV/AIDS have quality, affordable 
and appropriate housing. NAHC's network of members includes hundreds of 
low-income people living with HIV/AIDS, relying on Federal housing 
assistance to improve their ability to access and remain in care. On 
their behalf, we ask that you fund the highly successful and cost 
effective Housing Opportunities for Persons With AIDS Program (HOPWA) 
at a level of $365.2 million for fiscal year 2014. While this amount 
would provide assistance to far fewer than the actual number of people 
with HIV/AIDS that are eligible for and in need of housing assistance, 
it would permit housing help for an additional 4,250 households beyond 
the 61,614 unduplicated households currently served. HUD's own data 
indicates 146,986 households are currently eligible for HOPWA but 
unserved. In fact, HIV/AIDS housing providers project that half of the 
1.2 million people with HIV/AIDS require some form of housing 
assistance during the course of their illness. This request represents 
the HIV/AIDS housing community's recognition of the considerable 
challenges of the current economic climate yet still provides for some 
of the most vulnerable whose access to care and health outcomes are 
inextricably linked to housing status.
    NAHC is the only national housing organization that focuses 
specifically on the housing and housing-related service needs of low-
income people with HIV/AIDS. A core tenet of our mission is to see 
housing acknowledged and funded as a component of HIV prevention and 
healthcare. As more people are living longer with the virus and require 
housing assistance, unmet need is significant across the country. We 
understand that as many as three new jurisdictions may become eligible 
for funding during 2014, requiring that providers stretch already 
scarce existing resources to serve more people.
    Anecdotal reports from the NAHC membership and supporters reveal 
more than 45,000 people waiting for housing assistance in just 14 
reporting jurisdictions. In the southern part of United States, where 
the epidemic is growing the fastest, resources continue to be 
unavailable. In Dallas, Texas, for example, more than 4,375 people are 
awaiting housing assistance, not counting those who have given up, 
resigned to life doubled and tripled up in unsuitable dwellings, moving 
from shelter to shelter, or simply are navigating the streets. In 
places where the epidemic is most mature, the numbers waiting are even 
larger. In Los Angeles, for example, more than 11,000 are waiting for 
housing.
    Research shows that homelessness increases HIV risk. In a New York 
City (NYC) study, for example, new diagnoses among NYC shelter users 
were 16 times higher than among general population. Conversely, HIV 
increases risk of homelessness. Research demonstrates that up to 70 
percent of people with HIV/AIDS report a lifetime experience of 
homelessness or housing instability. In some communities as many as 70 
percent of people with HIV/AIDS are literally homeless, living in 
shelters on the streets or in places not intended for human habitation.
    For vulnerable populations the risk is even greater. For example, 
among a study involving HIV-positive women, research demonstrated if 
homeless or unstably housed at time of diagnosis, that women were at an 
increased risk for delayed entry into care and receipt of housing 
assistance was associated with access to care and reentry into care 
after dropping out. Unmet subsistence needs, including housing, had the 
strongest overall effect on physical and mental health of homeless 
women, with a greater effect on overall health as antiretroviral 
therapy.
    Research, much of which has been presented through NAHC's Housing 
and HIV/AIDS Research Summit Series, confirms housing as a strategic 
healthcare intervention to reduce health disparities by addressing both 
HIV/AIDS and those contexts that most expose people to HIV risk, 
including gender, extreme poverty, mental illness, chronic drug use, 
incarceration, and histories of exposure to trauma and violence, as 
well as homelessness. In addition, housing coupled with related 
services reduces overall public expense and more wisely deploys limited 
public resources. Research presented through NAHC's Housing and HIV/
AIDS Research Summit Series, including a searchable data base of more 
than 300 articles on housing and HIV/AIDS, can be found at the Summit 
Series permanent website, www.hivhousingsummit.org.
    HOPWA's track record for helping people with HIV/AIDS achieve 
housing stability is sterling. During program year 2011-2012, more than 
95 percent of people receiving tenant-based rental assistance through 
HOPWA achieved housing stability. Among those receiving any form of 
HOPWA housing assistance, over 93 percent developed a housing plan for 
continued on-going housing and nearly 89 percent had on-going contact 
with a primary care provider as specified in their service plans.
    Moreover, housing is a proven cost-saving and cost-effective 
healthcare and housing intervention. Housing sharply reduces avoidable 
emergency and inpatient health services, criminal justice involvement 
and other crises that are costly for both individuals and communities. 
One of the two seminal studies in this area, the Chicago Housing for 
Health Partnership (CHHP) found that homeless people with AIDS who 
received housing consumed $6,620 less in publicly funded housing, 
medical and crisis care than a comparison group that continued in 
``usual care,'' not receiving a housing voucher.
    The public cost ``savings'' generated by providing housing supports 
can fully offset the cost of the housing for people with AIDS, even 
before taking into account that each new HIV infection prevented 
through housing stability saves $400,000 in lifetime medical costs.
    There has been some national progress on evidence-based action on 
housing and HIV/AIDS. The July 2010 National HIV/AIDS Housing Strategy 
recognizes that housing is healthcare for people with HIV/AIDS and 
calls for increased resources and calls on Federal agencies to consider 
additional efforts to support housing assistance and other services to 
enhance adherence. In addition, in July 2012, the Department of Health 
and Human Services (HHS) included housing as one of seven common core 
indicators to monitor HHS-funded prevention, treatment and care 
services. Despite these advances, no additional resources have been 
made available for housing.
    NAHC's geographically diverse board fully supports and anxiously 
awaits the revision of the HOPWA formula as directed in the National 
HIV/AIDS Strategy to yield a fairer allocation of resources more 
directly tied to the current geographic distribution of the epidemic. 
Rural settings, the southeast and other regions . . .  Until the 
formula is modernized, we ask that the subcommittee continue to support 
levels of funding for the program in its current formulation that will 
permit some of those waiting to be served.
    In addition, HIV/AIDS providers urge adequate funding for Homeless 
Assistance Grants, Section 8 Housing Choice Vouchers, public housing, 
the 811 program for people with disabilities, and the range of housing 
programs relied upon by people coping with HIV/AIDS.
    We respectfully request the subcommittee to consider protecting and 
expanding resources in the Housing Opportunities for Persons with AIDS 
Program, a proven, effective HIV prevention and healthcare 
intervention.
                                 ______
                                 
        Letter From the National Association of Counties, et al.
                                                    April 19, 2013.
Hon. Patty Murray,
Chairman, Subcommittee on Transportation, Housing and Urban 
        Development, and Related Agencies,
Washington, DC.
Hon. Susan Collins,
Ranking Member, Subcommittee on Transportation, Housing and Urban 
        Development, and Related Agencies,
Washington, DC.
    Dear Chairman Murray and Ranking Member Collins: As you near 
consideration of the fiscal year 2014 Transportation, Housing and Urban 
Development, and Related Agencies Appropriations bill, the undersigned 
organizations representing local elected officials, State and local 
community development practitioners, planners, development 
organizations, and nonprofit organizations, urge you to support $3.3 
billion in formula funding for the Community Development Block Grant 
(CDBG) Program.
    CDBG provides vital funding and flexibility to address local needs 
in the areas of community and economic development, housing, 
infrastructure and vital public services. Over 1,200 communities rely 
on CDBG as a direct source of annual funding. Moreover, each year, an 
estimated 7,250 local governments nationally have access to CDBG funds; 
reaching rural, urban, and suburban areas. CDBG helps create jobs 
through the expansion and retention of businesses.
    Since fiscal year 2010, funding for CDBG has been cut by over $1 
billion, yet the need for these important resources at the local level 
has continued to grow. While we understand the need to address the 
Federal budget, we also understand the value of the local investments 
made by CDBG. We are deeply concerned that these investments are in 
jeopardy due to the Obama administration's fiscal year 2014 proposed 
budget cuts to CDBG, funding the formula program at $2.8 billion.
    The CDBG program generates additional resources, and adds to the 
local economy. For example, for every $1 of CDBG funding invested in a 
project another $3.55 is leveraged from other sources. Since its 
inception in 1974, CDBG has leveraged nearly $400 billion in other 
resources for community development and affordable housing.
    What has CDBG accomplished?

                         ECONOMIC OPPORTUNITIES

    Between fiscal year 2005 and fiscal year 2012 CDBG created or 
retained 302,622 local jobs.

                             DECENT HOUSING

    Between fiscal year 2005 and fiscal year 2012 CDBG has assisted 
over 1 million low- and moderate-income homeowners to rehabilitate 
their homes, provided down payment and closing cost assistance to 
qualified home buyers, and assisted homeowners through lead-based paint 
abatement.

                      SUITABLE LIVING ENVIRONMENT

    Between fiscal year 2005 and fiscal year 2012 CDBG-funded 
infrastructure projects have benefitted over 30 million Americans 
nationwide, by providing a suitable living environment that includes 
sanitary water and sewer systems, safe streets and transit-ways, 
improved drainage systems, and other improvements that support our 
communities and help grow local economies.
    Between fiscal year 2005 and fiscal year 2012, CDBG has provided 
public services to over 95 million low- and moderate-income households 
nationwide. These services included employment training, meals and 
other services to the elderly, services to help abused and neglected 
children, assistance to local food banks, among others.
    We urge you to support our recommendation of $3.3 billion for CDBG 
formula grants in fiscal year 2014 to help communities nationwide 
continue to provide vital programs and services to low-income persons.
            Respectfully,

American Planning Association
Council of State Community Development Agencies
Habitat for Humanity International
Housing Assistance Council
International Economic Development Council
Local Initiatives Support Corporation
National Alliance of Community and Economic Development Associations
National Association of Counties
National Association for County Community and Economic Development
National Association of Development Organizations
National Association of Local Housing Finance Agencies
National Association of Housing and Redevelopment Officials
National Community Development Association
National Housing Conference
National League of Cities
National Rural Housing Coalition
Rebuilding Together
U.S. Conference of Mayors
U.S. Soccer Foundation
                                 ______
                                 
     Prepared Statement of the National Association of Housing and 
                        Redevelopment Officials

    Chairman Murray, Ranking Member Collins, members of the 
Transportation, Housing and Urban Development, and Related Agencies 
Subcommittee, thank you for providing an opportunity for outside 
witnesses to testify with respect to the fiscal year 2014 Department of 
Housing and Urban Development (HUD) budget. The National Association of 
Housing and Redevelopment Officials (NAHRO) is one of the Nation's 
oldest housing advocacy organizations. It represents over 3,100 housing 
and redevelopment authorities nationwide who provide decent, safe and 
affordable housing in neighborhoods of quality for well over 2 million 
families--including senior citizens, the disabled and our Nation's 
veterans. Our members are on the front lines every day to assist 
vulnerable families and the homeless in both urban and rural America. 
They know what works, what does not and why; they are mission-driven 
and they remain, following decades of service to the community, an 
essential component of the Nation's housing delivery system.
    Our national network of housing and community development (HCD) 
professionals stands ready to use taxpayers' dollars wisely and with 
integrity to move us closer to a Nation in which all people have 
decent, safe, affordable housing and economic opportunity in viable, 
sustainable communities. NAHRO calls upon the administration and the 
Congress to provide responsible funding levels for the core Federal HCD 
programs that serve low- and moderate-income families at the local 
level. Recognizing the fiscal realities you face, NAHRO also 
aggressively seeks a more rational, less administratively burdensome 
regulatory environment. NAHRO supports reforms, including essential 
statutory reforms under the purview of the Banking, Housing and Urban 
Affairs Committee, which will allow local agencies to stretch Federal 
investments further, house more families, and pursue targeted community 
and economic development activities with the potential to transform 
neighborhoods and communities.

                             TIPPING POINT

    Our efforts as a Nation to reduce the current Federal deficit are 
important and well-intended. Unfortunately, their serious (though 
unintended) consequences are now affecting vulnerable families who 
would be homeless without the assistance they now receive through 
programs managed by NAHRO members. Limited 302B allocations to this 
subcommittee over many years, coupled with spending caps implemented as 
a result of the Budget Control Act of 2011, disproportionate reductions 
in domestic discretionary dollars and the March 1 sequester, have 
resulted in historically low funding prorations for such things as 
voucher program administration and the public housing operating fund. 
Underfunding, coupled with a lack of regulatory relief, has finally 
brought us to a tipping point. Increasing numbers of housing 
authorities have advised or must soon advise vulnerable families 
currently receiving housing assistance payments that they can no longer 
assist them. More and more housing authorities are returning vouchers--
including Veterans Affairs Supportive Housing (VASH) vouchers--to HUD 
because they can no longer afford to administer the program (see the 
following chart).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition, structural decisions impacting housing programs, such 
as the ill-timed reduction in public housing authority reserves in 
fiscal year 2012, have put many housing authorities in a vulnerable 
position. Under current funding scenarios, some housing and 
redevelopment agencies--notably smaller entities in rural areas--will 
in time be forced to close their doors. They will no longer be able to 
assist those who currently rely on them, much less families who have 
been on public housing and section 8 waiting lists for many years.
    Building on the valiant efforts of this subcommittee to provide 
necessary dollars within the context of reduced allocations coupled 
with larger budget pressures, housing and redevelopment authorities 
have done more with less for years. The 2014 Transportation, Housing 
and Urban Development, and Related Agencies (THUD) appropriation 
provides us with an opportunity and a real challenge to deal with the 
current set of facts on the ground in far too many communities across 
the Nation. A return to ``regular order'' in the Congress must be 
coupled with a return to fiscal policies that recognize our Nation's 
core values--notably our decades-long commitment to a decent home and 
suitable living environment for all Americans. In this spirit we 
respectfully urge your consideration and ultimate adoption of following 
principles:
  --Preserve and revitalize the public housing inventory;
  --Reform, strengthen and adequately fund the section 8 program;
  --Fully fund community and economic development programs;
  --Enact small housing authority reforms;
  --Expand the supply of affordable housing;
  --Fully fund homeless assistance grant programs; and
  --Improve the regulatory environment for HCD agencies.

                    PROGRAM-SPECIFIC RECOMMENDATIONS

    We hope this subcommittee, in conjunction with your colleagues on 
the Banking Committee, will let these recommendations guide your work 
in the formulation of funding decisions and necessary reforms for core 
HUD programs managed by our members. Our own fiscal year 2014 funding 
recommendations can be found in our testimony. For more detail, NAHRO's 
2013 Legislative and Regulatory Agenda is available online at: 
www.nahro.org/sites/default/files/searchable/2013Agenda.pdf.

                             PUBLIC HOUSING

    Provide full funding for the operating costs and annual capital 
accrual needs of public housing through direct appropriations.
    Enable greater flexibility to direct available resources toward 
their highest priority needs, regardless of funding source.
    Seek dedicated resources for the revitalization of severely 
distressed public housing properties.
    Unlock the value of public housing assets by providing public 
housing authorities (PHAs) with a variety of tools to leverage and 
invest in the preservation of their properties.
    Provide in statute for the establishment of protected capital 
reserve accounts to allow PHAs to plan responsibly for future needs.
    Improve tools designed to allow PHAs to steward their portfolios as 
true asset managers, including HUD's demolition and disposition 
regulations.
    Provide enhanced incentives for energy efficiency upgrades.

                               SECTION 8

    Provide appropriations sufficient to renew vouchers at actual 
rental assistance costs for all participating households and full 
funding for ongoing and special administrative fees as provided in 
section 8(q) of the U.S. Housing Act as amended by the Quality Housing 
and Work Responsibility Act of 1998.
    Provide for a voucher funding formula that is based on the number 
of families served and voucher costs for the most recent calendar year 
for which data are available.
    Restore a responsible level of administrative fee funding under 
voucher programs.
    Provide for new authority to allow PHAs to utilize a portion of 
their Housing Assistance Payment Reserves to cover unmet administrative 
expenses related to leasing and retaining leased households.
    Enact meaningful voucher program reform legislation.
    Enable the immediate implementation of long-overdue regulatory and 
administrative reforms that will allow for the more efficient use of 
resources in voucher programs.
    Provide for a responsible level of funding for the renewal of 
section 8 multi-family project-based rental assistance (PBRA) 
contracts.
    Maintain a level playing field in the competition for contracts 
under the Section 8 Performance-Based Contract Administrators 
initiative.

                   COMMUNITY AND ECONOMIC DEVELOPMENT

    Restore funding for CDBG to ensure the success of State and local 
efforts to spur job creation and retention, provide vital public 
services, and expand affordable housing opportunities for low- and 
moderate-income families and individuals.
    Provide funding for the Sustainable Housing and Communities 
Initiative separate from and not as a set-aside under the CDBG program.
    Cover the credit subsidy for HUD's section 108 loan guarantee 
program, and increase the loan guarantee limit to $500 million as 
previously proposed by the administration.
    Restore dedicated funding for HUD's Brownfields Economic 
Development Initiative.
    Restore a responsible level of funding for the HOME Investment 
Partnerships Program (HOME).
    Enact a budget neutral mandatory funding source for the Housing 
Trust Fund.
    Thank you again for the opportunity to testify. We look forward to 
discussing our funding recommendations with this subcommittee in 
greater detail.

                  NAHRO--RECOMMENDED FISCAL YEAR 2014 FUNDING LEVELS FOR SELECTED HUD PROGRAMS
                [Brackets in text indicate set-asides, and indented text indicates sub-accounts.]
----------------------------------------------------------------------------------------------------------------
                                                 Fiscal year 2013 ($ millions)     Fiscal year 2014 ($ millions)
                   Program                    ------------------------------------------------------------------
                                                 Enacted \1\   Sequestration \2\   Proposed \3\      NAHRO \4\
----------------------------------------------------------------------------------------------------------------
Public Housing Operating Fund................          $4,253            $4,054       \5\ $4,600      \6\ $5,168
Public Housing Capital Fund..................           1,871             1,777            2,000           3,750
    ROSS Program.............................            [50]              [47]   ..............              50
    Emergency Capital Needs..................            [20]              [19]         \7\ [20]              20
Choice Neighborhoods Initiative..............             120               114              400          \8\400
Rental Assistance Demonstration..............  ..............  .................              10  ..............
Tenant-Based Rental Assistance...............          18,901            17,964           19,989  ..............
    Section 8 HAP Renewals...................    \9\ [17,207]          [16,349]    \11\ [17,968]     \11\ 18,540
    Ongoing Administrative Fees..............         [1,322]           [1,258]          [1,635]           1,994
    Additional Administrative Fees...........            [50]              [48]             [50]              50
    Tenant Protection Vouchers...............            [75]              [71]            [150]             150
    Incremental HUD-VASH Vouchers............            [75]              [75]             [75]              75
    Family Self-Sufficiency (FSS)                        [60]              [57]          \11\ 75              87
     Coordinators............................
Sec. 8 Project-Based Rental Assistance.......      \12\ 9,321             8,852           10,272      Fully Fund
                                                                                                            \13\
Community Development Fund...................           3,301             3,135            3,143  ..............
    Community Development Block Grant Program         [3,242]           [3,078]          [2,798]           3,300
    Neighborhood Stabilization Initiative....  ..............  .................           [200]  ..............
    Integrated Planning and Investment Grants  ..............  .................            [75]  ..............
Section 108 Loan Guarantees..................            5.94              5.64             \14\              12
HOME Investment Partnerships Program.........             998               948              950           1,600
Housing Opportunities for Persons with AIDS..             331               315              332             365
Homeless Assistance Grants...................           2,029             1,933            2,381           2,381
----------------------------------------------------------------------------------------------------------------
\1\ Enacted levels from Consolidated and Further Continuing Appropriations Act, 2013, as signed by the President
  on March 22, 2013. Figures reflect application of 0.2 percent across-the-board cut as required by the
  legislation.
\2\ Figures reflect 5 percent across-the-board sequestration reductions as calculated by the Office of
  Management and Budget on March 1, 2013.
\3\ Obama administration's proposed budget for FY 2014. Figures do not reflect proposed Transformation
  Initiative set-asides.
\4\ NAHRO recommendations are for standalone/line-item funding. Blank indicates no position.
\5\ The budget proposes to reduce eligibility by a total of $63 million through changes to flat rent and the
  medical expense deduction threshold.
\6\ NAHRO's recommendation assumes that eligibility is determined according to current statutes and regulations
  governing such calculations.
\7\ Proposes the elimination of safety and security measures as an eligible use of funding.
\8\ NAHRO's support for this funding level is contingent upon responsible funding levels for the Operating and
  Capital Funds and the enactment of authorizing legislation requiring that two-thirds of each year's funding be
  awarded to projects where PHAs are the lead or co-applicants.
\9\ The act authorizes the use of the housing assistance payments (HAP) adjustment fund ``for PHAs, that despite
  taking reasonable cost savings measures, as determined by the Secretary, would otherwise be required to
  terminate participating families from the program due to insufficient funds.''
\10\ Assumes $235 million in savings from proposed changes to income targeting, minimum rents, the medical
  expense deduction threshold, and the determination of utility allowances. Also assumes an unspecified amount
  of indirect funding through offsets of ``excess'' HAP Reserves from non-Moving to Work (MtW) PHAs and MtW
  PHAs.
\11\ The Administration proposes eliminating the section 8 family self-sufficiency (FSS) set-aside in favor of a
  standalone consolidated program to serve Public Housing and section 8 housing choice voucher (HCV) residents.
\12\ The act authorizes the use of ``unobligated balances, including recaptures and carryover, remaining from
  funds appropriated'' for fiscal year 2013 and prior years under the headings of ``Housing Certificate Fund,''
  ``Annual Contributions for Assisted Housing,'' and ``Project-Based Rental Assistance'' for ``renewal of or
  amendments to section 8 project-based contracts and for performance-based contract administrators.''
\13\ NAHRO supports a stable, reliable subsidy stream in the form of full 12-month contract renewal funding.
\14\ In lieu of appropriations, the Administration proposes collecting a fee from borrowers to cover the
  program's credit subsidy costs.

                                 ______
                                 
Letter From the National Association of Local Housing Finance Agencies, 
 the U.S. Conference of Mayors, and the National Community Development 
                              Association
                                                    April 19, 2013.
Hon. Patty Murray,
Chairman, Subcommittee on Transportation, Housing and Urban 
        Development, and Related Agencies,
Washington, DC.
Hon. Susan Collins,
Ranking Member, Subcommittee on Transportation, Housing and Urban 
        Development, and Related Agencies,
Washington, DC.
    Dear Chairman Murray and Ranking Member Collins: The undersigned 
organizations of local elected officials and local and State housing 
and community development practitioners write to you concerning fiscal 
year 2014 appropriations for the Community Development Block and HOME 
Investment Partnerships (HOME) programs. Specifically, we wish to urge 
the Transportation and Housing and Urban Development Appropriations 
subcommittee to reject recommendations contained within the 
administration's fiscal year 2014 budget recommending set-asides and 
other ``reforms'' of these programs.
    Like other national organizations we urge you to support $3.3 
billion in formula funding for the Community Development Block Grant 
(CDBG) Program.
    However, we do not support the administration's proposal to reduce 
overall CDBG formula funds by $275 million, for a $200 million 
Neighborhood Stabilization Program Initiative and $75 million for 
Integrated Planning Grants (formerly known as the Sustainable 
Communities Initiative). This has the effect of transferring formula 
funds which benefit the many into two categorical grant programs that 
would benefit the few. Similarly, the HOME budget request contains an 
up to $10 million set-aside for the Self-Help Homeownership Opportunity 
Program (SHOP). These set-asides are for activities that could be 
funded under the CDBG or HOME programs respectively.
    We also want to advise that we do not support the establishment of 
a minimum funding threshold for CDBG entitlement grants. This would 
adversely affect an estimated 340 smaller communities who are currently 
implementing programs that are responsive to their needs. This would 
force them to compete for limited State funds without any positive 
benefit to either them or the State. We also oppose the 
administration's proposal to repeal the grandfathering provisions in 
CDBG for metropolitan cities and urban counties. Again, this would 
seriously disrupt on-going programs.
    Based on fiscal year 2012 allocations (the Department of Housing 
and Urban Development (HUD) has not released the fiscal year 2013 
allocations) in Washington State the following communities would lose 
direct funding because they fall below the $350,000 threshold: 
Anacortes, East Wenatchee City, Longview, Marysville, Mount Vernon, 
Olympia, Redmond, Richland, Shoreline, and Wenatchee.
    CDBG provides vital funding and flexibility to address local needs 
in the areas of community and economic development, housing, 
infrastructure and vital public services. Over 1,200 communities rely 
on CDBG as a direct source of annual funding. Moreover, each year, an 
estimated 7,250 local governments nationally have access to CDBG funds 
reaching rural, urban, and suburban areas. CDBG helps create jobs 
through the expansion and retention of businesses.
    Since fiscal year 2010, funding for CDBG has been cut by over $1 
billion, yet the need for these important resources has continued to 
grow. While we understand the need to address the Federal budget 
deficit, we also understand the value of the local investments made by 
CDBG. We are deeply concerned that these investments are in jeopardy 
due to the Obama administration's fiscal year 2014 proposed budget cuts 
to CDBG, funding the program at $2.8 billion.
    The CDBG program generates additional resources, and adds to the 
local economy. For example, for every $1 of CDBG funding invested in a 
project another $3.55 is leveraged from other sources. Since its 
inception in 1974, CDBG has leveraged nearly $400 billion in other 
resources for community development and affordable housing.
    As a companion to CDBG, the HOME Investment Partnerships program 
has suffered severe cuts since fiscal year 2010, from $1.8 billion then 
to $950 million in fiscal year 2013, following sequestration. We urge 
that its funding level be restored to $1.6 billion in fiscal year 2014.
    HOME serves as a critical source of funding for the expansion of 
affordable ownership and rental housing for low- and moderate-income 
households. The types of activities HOME assists are the construction 
and preservation of affordable rental housing usually as gap 
assistance, the construction and rehabilitation or affordable ownership 
housing as well as for homeownership assistance and tenant-based rental 
assistance. Since HOME was enacted in 1990 it has produced over 1 
million affordable homes, including 612,792 homeownership new 
construction and rehabilitation units and 423,154 new construction or 
preservation of rental units. Every $1 of HOME funds leverages an 
additional $4 in non-HOME funds.
    The administration's fiscal year 2014 budget proposes funding for 
HOME at the $950 million finally approved for fiscal year 2013. It is 
estimated that this will decrease production of HOME units by 34,000 
units and result in the loss of an estimated 8,935 jobs.
    Thus, we urge you to support our recommendation of $3.3 billion for 
CDBG formula grants and $1.6 billion for HOME in fiscal year 2014 to 
help communities nationwide continue to provide vital affordable 
housing and neighborhood revitalization programs and services to low-
income persons.
            Respectfully,
                    U.S. Conference of Mayors, National Association of 
                            Local Housing Finance Agencies, and the 
                            National Community Development Association.
                                 ______
                                 
       Letter From the National Council of State Housing Agencies
                                                    April 19, 2013.
Hon. Patty Murray,
Chairman, Subcommittee on Transportation, Housing and Urban 
        Development, and Related Agencies,
Washington, DC.
Hon. Susan Collins,
Ranking Member, Subcommittee on Transportation, Housing and Urban 
        Development, and Related Agencies,
Washington, DC.

    Dear Chairman Murray and Ranking Member Collins: We appreciate this 
opportunity to provide testimony in support of the HOME Investment 
Partnerships (HOME) program. HOME program funding is vital to the 
production and provision of housing affordable to low-income families. 
Yet HOME has received devastating cuts--cut almost in half in just the 
past few years. Just since fiscal year 2011, HOME has been cut by 41 
percent from $1.6 billion to an estimated post-sequester level of $948 
million in fiscal year 2013. Cuts to the HOME program are being felt 
deeply across the country. For example, the HOME funding allocation to 
the State of Washington has decreased by 43 percent, from $34.5 million 
in fiscal year 2010 to $19.8 million in fiscal year 2012, and the 
allocation to the State of Maine has fallen 44 percent, from $8.5 
million in fiscal year 2010 to $4.7 million in fiscal year 2012.
    To begin restoring funds for HOME, we implore you to fund HOME in 
fiscal year 2014 at $1.6 billion, equal to its fiscal year 2011 funding 
level. We ask that you resist additional, disproportionate cuts to HOME 
and recognize both the successful track record of the program and the 
need for its continued funding at a time when our housing market, and 
broader economy, continues to struggle and the need for affordable 
housing continues to grow.
    Authorized in 1990, the HOME program provides grants to State and 
local governments to produce affordable housing for low-income 
families. HOME funds are a vital and unique source of financing for 
numerous affordable housing developments--many of which would not be 
possible without HOME assistance. States and localities use HOME for 
affordable housing production and rehabilitation, preservation, and 
rental and homeownership assistance.
    By flexibly working with and supporting many critical Federal 
housing programs, including the Low Income Housing Tax Credit and rural 
housing programs, HOME uniquely empowers States and localities to 
respond to the housing needs they judge most pressing. States and 
localities use HOME to serve the whole spectrum of housing need, from 
homeless to ownership to disaster recovery, from urban to rural areas, 
and all low-income populations, including families with children, the 
elderly, veterans, and persons with special needs. HOME also enables 
for-profit and nonprofit developers to provide affordable housing in 
their communities.
    In its 20 years of existence, the HOME program has successfully 
produced more than 1 million affordable homes, in addition to making 
homes affordable for hundreds of thousands of families with rental 
assistance. From 1992 to 2012, States and localities have used HOME 
funds to produce 460,692 home buyer homes, 423,154 rental homes, and 
212,100 rehabilitated home buyer homes. Another 264,715 families have 
received rental assistance through the HOME program. States and 
localities leverage HOME funding by generating more than $4 in other 
private and public resources for every $1 of HOME. Over the program's 
lifetime, HOME funds have been used to leverage $100.2 billion in funds 
for affordable housing.
    HOME funding is used exclusively to create affordable housing for 
low-income households, those earning incomes of 80 percent or less of 
area median income (AMI). While the statute requires that at least 90 
percent of families receiving rental assistance through HOME have 
incomes at 60 percent of AMI or less, almost 100 percent of those 
receiving tenant-based rental assistance and 97 percent of families 
living in HOME-assisted rental units have incomes of 60 percent of AMI 
or less. One out of four families helped with HOME are extremely low-
income, with incomes of 30 percent of AMI or less.
    In addition to providing needed affordable housing, HOME funds 
contribute to job creation, especially in the hard-hit construction 
sector. Every $1 billion in HOME creates or protects approximately 
18,000 jobs. Restoring funding to $1.6 billion in fiscal year 2014 
would create 11,736 more jobs than created by HOME's fiscal year 2013 
funding level.
    Based on projected production levels included in HUD's fiscal year 
2014 budget request, if HOME is funded in fiscal year 2014 at the 
administration's proposed level of $950 million, we expect almost 
34,000 fewer affordable homes will be produced in fiscal year 2014 than 
were produced in fiscal year 2011. This means fewer home buyer and 
rental units, fewer homeowner rehabilitation projects, and fewer 
tenants assisted.
    As we face decreased investment in the production of affordable 
housing, we face a continued growing need for it. According to HUD's 
latest Worst Case Housing Needs report, in 2011 nearly 8.5 million very 
low-income families--who received no government housing assistance--
paid more than half their monthly income for rent, lived in severely 
substandard housing, or both. This number is up 2.6 million, or 43.5 
percent, since 2007.
    Today, there are only 57 affordable rental homes available for 
every 100 very low-income renter households, those earning 50 percent 
of AMI or less. For the 10.1 million households with extremely low 
incomes, there are only 30 affordable homes available for every 100 
households. Only one in four households eligible for Federal rental 
housing assistance receives it.
    As a capital program, HOME is a vital resource for addressing this 
growing housing need. HOME funds produce new units of affordable 
housing and thus are necessary to increasing the overall supply of 
affordable housing. The Bipartisan Policy Center's Housing Commission 
in its recent report entitled Housing America's Future: New Directions 
for National Policy, called for an increase in HOME appropriations to 
serve as the gap financing needed to support new developments that 
would expand the supply of affordable rental housing.
    A HOME program appropriation of $1.6 billion in fiscal year 2014 
would only go partway towards restoring HOME program funding, but it 
would provide States and local communities with the critical resources 
needed to help address the spectrum of affordable housing needs they 
face. Therefore, we urge you to support the proven outcomes of the HOME 
program by providing a fiscal year 2014 appropriation of $1.6 billion. 
Thank you for this opportunity to testify on the need for HOME funding. 
Please do not hesitate to contact us with any questions.
            Sincerely,

Council for Affordable and Rural Housing
Council of State Community Development Agencies
CSH
Enterprise Community Partners
Habitat for Humanity International
Housing Assistance Council
Housing Partnership Network
Mercy Housing
National Alliance of Community Economic Development Associations
National Association for County Community and Economic Development
National Association of Home Builders
National Association of Housing and Redevelopment Officials
National Association of Local Housing Finance Agencies
National Community Development Association
National Council of State Housing Agencies
National Housing Conference
National Leased Housing Association
National Low Income Housing Coalition
National Rural Housing Coalition
Stewards of Affordable Housing for the Future
The Community Builders, Inc.
                                 ______
                                 
  Prepared Statement of the National Council of State Housing Agencies

    Thank you for the opportunity to provide testimony on behalf of our 
Housing Finance Agency (HFA) members regarding fiscal year 2014 
appropriations for housing programs. As you consider your fiscal year 
2014 Department of Housing and Urban Development (HUD) appropriations 
bill, we urge you to restore HOME Investment Partnerships Program 
(HOME) formula grant funding to $1.6 billion, equal to its fiscal year 
2011 funding level, and provide section 8 funding adequate to renew all 
expiring project-based contracts for a full year, fully fund all 
authorized Housing Choice Vouchers (vouchers), provide new incremental 
vouchers in fiscal year 2014, allocate new flexible rental assistance 
to State HFAs, and ensure that successful HFA voucher and project-based 
contract administrators continue in and are adequately compensated for 
these roles. We also ask you to provide authority for Ginnie Mae to 
securitize Federal Housing Administration (FHA)-HFA Multifamily Risk-
Sharing program loans.
    The National Council of State Housing Agencies' (NCSHA's) members 
are the HFAs of the 50 States, the District of Columbia, New York City, 
Puerto Rico, and the U.S. Virgin Islands. HFAs administer a wide range 
of affordable housing and community development programs, including 
HOME, section 8, homelessness assistance, down payment assistance, 
State housing trust funds, tax-exempt Housing Bonds, and the Low Income 
Housing Tax Credit (Housing Credit). HFAs effectively employ these 
resources to advance their common public-purpose mission of providing 
affordable housing to the people of their jurisdictions who need it.

                  HOME INVESTMENT PARTNERSHIPS PROGRAM

    HOME program funding is vital to the production and provision of 
housing affordable to low-income families and has a long record of 
tremendous success in doing so. Yet HOME has received devastating cuts 
in recent years. HOME has been cut almost in half since fiscal year 
2010. Just since fiscal year 2011, HOME funding has been cut by 41 
percent--from $1.6 billion to an estimated post-sequester level of $948 
million in fiscal year 2013. This is the lowest funding level in the 
program's 20-year history. We appeal to you to spare the HOME program 
from further cuts and to fund HOME at an amount as close to its fiscal 
year 2011 funding level of $1.6 billion as possible. The need for HOME 
funding vastly exceeds the amount available.
    We also request that the subcommittee resist further reducing the 
amount of this flexible funding source going directly to States and 
localities by not including any set-asides within the HOME program 
account.
    In these tight budgetary times, the HOME formula grant is one of 
the best housing investments Congress can make. HOME's flexibility 
allows States and localities to determine how to put limited HOME funds 
to their best use. HFAs use HOME to serve the whole spectrum of housing 
need, from homeless to ownership to disaster recovery, from urban to 
rural areas, and all low-income populations, including families with 
children, the elderly, veterans, and persons with special needs. HOME 
funding is necessary to help States and localities respond to urgent 
housing needs.
    HOME funds must be used to assist families with low incomes, those 
earning 80 percent of area median income (AMI) or less. State HFAs 
report using more than half of their HOME funds in 2011 to assist very 
low-income families, those earning 50 percent of AMI or less, and more 
than a quarter of the funds to assist extremely low-income families, 
those earning 30 percent of AMI or less.
    HOME has an outstanding track record of success. States and 
localities have used HOME funding to produce more than 1 million 
affordable homes, in addition to making homes affordable for hundreds 
of thousands of families with direct rental assistance.
    Further, every Federal HOME $1 generates more than $4 in additional 
public and private investment. HOME funds have leveraged more than $100 
billion in additional funds for affordable housing. HOME funding is a 
vital piece in financing numerous affordable housing developments--many 
of which would not be able to move forward without its assistance. HOME 
complements and supports many critical Federal housing programs, such 
as the Low Income Housing Tax Credit, making developments financially 
feasible and achieving deeper income targeting than would otherwise be 
possible.
    NCSHA also supports the State-administered Housing Trust Fund and 
seeks a dedicated and sustainable funding source for it. However, the 
Housing Trust Fund is needed as a new resource for developing housing 
affordable to those with very low and extremely low incomes. It is not 
a replacement for appropriations to HOME and other HUD programs and 
should not be funded at their expense.

                           RENTAL ASSISTANCE

    We recommend Congress provide adequate funding for vouchers and 
project-based section 8 contracts. These two programs serve some of our 
lowest income, most vulnerable people. We urge the subcommittee to 
ensure the section 8 accounts are funded such that all vouchers already 
in use are renewed and all contract renewals are funded for a full 12 
months in order to maintain owner confidence in the program.
    We also ask that you provide the funding necessary for public 
housing agencies (PHAs) to effectively administer the voucher program. 
PHAs have experienced year-over-year proration of administrative fees, 
which has negatively impacted PHAs' ability to administer the voucher 
program. HFA voucher and project-based contract administrators play 
critical roles in providing rental assistance and we ask that you 
ensure that they are adequately compensated for them.
    Thank you for funding new incremental Veterans Affairs Supportive 
Housing (VASH) vouchers in fiscal year 2013. However, additional new 
unrestricted incremental vouchers are needed so we can help some of the 
millions of families who qualify for rental assistance but do not 
receive it. According to HUD's most recent report on Worst Case Housing 
Needs, there was a 43.5 percent increase from 2007 to 2011 in 
households with worst case housing needs--defined as very low-income 
renters not receiving government housing assistance who either pay more 
than half of their monthly income for rent, live in severely inadequate 
conditions, or both.
    We urge you also to provide flexible rental assistance to State 
HFAs that they can use for either project-based or tenant-based rental 
assistance. Such funding would allow States to address their production 
and affordability needs most effectively and to serve more extremely 
low-income families by combining it with State-administered Housing 
Credit, Housing Bond, HOME, and other production resources.
    States consistently target their Housing Credit, Housing Bond, and 
HOME resources to households with incomes below the programs' statutory 
income limits. Yet it is difficult--and sometimes impossible--to reach 
these households at a rent level they can afford without rental 
assistance.

      GINNIE MAE SECURITIZATION OF MULTIFAMILY RISK-SHARING LOANS

    We request that you provide authority for Ginnie Mae to securitize 
FHA-HFA Multifamily Risk-Sharing loans. Providing this authority will 
allow HFAs to reduce the cost of financing rental housing developments, 
making it possible to achieve lower rents and reach even lower income 
tenants.
    Under the FHA-HFA Risk-Sharing program, HFAs meeting rigorous 
financial standards are able to underwrite FHA multifamily loans in 
return for sharing the risk of any losses on those loans. This program 
has been very successful, with 26 HFAs financing nearly 1,000 loans, 
totaling more than $5 billion in principal and supporting more than 
101,000 affordable rental homes.
    If Ginnie Mae were to securitize FHA-HFA Risk-Sharing loans, HFAs 
predict the interest rate on the underlying mortgages could be reduced 
by as much as 200 basis points, or 2 percent. This rate reduction would 
lower rents and potentially reduce the need for and cost of other 
Federal housing subsidies. This authority would not increase Government 
spending. In fact, it would generate revenue for the Federal Government 
according to the Congressional Budget Office (CBO), which estimates 
that allowing Ginnie Mae to securitize FHA-HFA Risk-Sharing loans would 
result in $20 million in mandatory savings over 10 years, or $2 million 
annually.
    We recognize the continued constrained fiscal environment in which 
you must craft your fiscal year 2014 appropriations legislation. We 
urge you to consider the proven effectiveness of HOME and section 8 
rental assistance and the great unmet need for them, which has been 
further exacerbated in these difficult economic times, as you make your 
funding decisions. NCSHA appreciates this opportunity to offer a 
statement on behalf of these programs and we are ready to assist you in 
any way we can as you move forward with the fiscal year 2014 
appropriations process.

</pre></body></html>
